<html>
<title> - THE FISCAL YEAR 2020 DOE BUDGET</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                    THE FISCAL YEAR 2020 DOE BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 9, 2019

                               __________

                           Serial No. 116-33
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
 


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                             ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
40-241 PDF            WASHINGTON : 2020 
                         
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
    
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................    10

                               Witnesses

Rick Perry, Secretary, Department of Energy......................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................    72

                           Submitted Material

Report, ``FY 2020 Congressional Budget Request: Budget in 
  Brief,'' Office of Chief Financial Officer, Department of 
  Energy, March 2019, \1\ submitted by Mr. Rush
Analysis by the Metropolitan Policy Program at Brookings, 
  ``Advancing Inclusion Through Clean Energy Jobs,'' by Mark 
  Muro, et al., April 2019, \2\ submitted by Mr. Rush
Report by the Solar Energy Industries Association and The Solar 
  Foundation, ``Diversity Best Practices Guide for the Solar 
  Industry,'' May 2019, \3\ submitted by Mr. Rush
Statement of the Alliance to Save Energy, ``Growth in Energy 
  Efficiency Demands Investment in a Highly Skilled Workforce,'' 
  April 29, 2019, submitted by Mr. Rush..........................    70

----------

\1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF03/20190509/109433/
HHRG-116-IF03-20190509-SD71415.pdf.
\2\ The analysis has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF03/20190509/109433/
HHRG-116-IF03-20190509-SD121111.pdf.
\3\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF03/20190509/109433/
HHRG-116-IF03-20190509-SD12411.pdf.


                    THE FISCAL YEAR 2020 DOE BUDGET

                              ----------                              


                         THURSDAY, MAY 9, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
room 2322, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Doyle, 
Sarbanes, McNerney, Tonko, Loebsack, Butterfield, Welch, 
Schrader, Kennedy, Veasey, Kuster, Barragan, McEachin, 
O'Halleran, Blunt Rochester, Pallone (ex officio), Upton 
(subcommittee ranking member), Latta, Rodgers, McKinley, 
Kinzinger, Johnson, Bucshon, Flores, Walberg, Duncan, and 
Walden (ex officio).
    Staff present: Jeffrey C. Carroll, Staff Director; Jean 
Fruci, Energy and Environment Policy Advisor; Tiffany 
Guarascio, Deputy Staff Director; Omar Guzman-Toro, Policy 
Analyst; Zach Kahan, Outreach and Member Service Coordinator; 
Rick Kessler, Senior Advisor and Staff Director, Energy and 
Environment; Brendan Larkin, Policy Coordinator; John Marshall, 
Policy Coordinator; Lisa Olson, FERC Detailee; Tuley Wright, 
Energy and Environment Policy Advisor; Mike Bloomquist, 
Minority Staff Director; Jordan Davis, Minority Senior Advisor; 
Ryan Long, Minority Deputy Staff Director; Mary Martin, 
Minority Chief Counsel, Energy and Environment; Brannon Rains, 
Minority Staff Assistant; Zach Roday, Minority Director of 
Communications; and Peter Spencer, Minority Senior Professional 
Staff Member, Environment and Climate Change.
    Mr. Rush. I understand the Secretary has a hard stop at 
12:30, so the committee hearing is called to order.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    I want to thank everyone for today's attendance on the 
oversight of DOE's FY20 budget proposal, and I want to welcome 
the Secretary of DOE, Secretary Perry, back to this 
subcommittee.
    Mr. Secretary, DOE's FY 2020 budget requests $31.7 billion, 
a $4 billion decrease from FY 2019 that was enacted, the number 
in 2019, and it includes extreme reductions to some critical 
programs. Federal investments in clean energy programs, power 
grid operations, Next Generation energy technologies, and 
economic development for tribal communities are drastically 
decreased in your proposal. Important departments such as the 
Office of Energy Efficiency and Renewable Energy is reduced by 
86 percent from FY 2019 levels, with the vast majority of these 
cuts, more than $700 million, coming from energy efficiency 
programs. Additionally, the budget proposal would slash the 
Office of Science, which funds the 17 national laboratories by 
$1 million from the FY 2019 enacted level, while also 
eliminating the Advanced Research Programs Agency: Energy, 
ARPA-E, in FY 2020.
    Mr. Secretary, as you can imagine, many of these proposed 
cuts are nonstarters, as far as I am concerned, as these 
reductions would severely impact federally funded investments 
in clean energy research and development, harming our economy 
and global status, as leadership warrants in these particular 
areas.
    However, another issue, Mr. Secretary, that I want to 
discuss with you today is the dire need for Federal investment 
in workforce training to help put thousands of Americans to 
work in good-paying jobs and careers. Mr. Secretary, just last 
month, Brookings released a groundbreaking and eye-opening 
study entitled, ``Advancing Inclusion Through Clean Energy 
Jobs''. Some of these key findings in this report found that 
employees in clean energy jobs earn higher and more equitable 
wages than all workers nationally with mean hourly wages 
topping the national average by 8 to 19 percent. The study 
found that clean energy jobs provide tremendous opportunities 
for low-income workers to increase their salaries by earning up 
to $5 to $10 more per hour compared to other jobs. Despite 
higher wages, the study found that many clean energy jobs 
actually have lower educational requirements, with close to 50 
percent of these workers holding only a high school diploma, 
but earning higher wages than comparable peers in other 
industries.
    Mr. Secretary, I look forward to hearing from you today as 
we discuss these and other important issues.
    [The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    I would like to thank everyone for attending today's 
oversight hearing on DOE's FY20 Budget proposal and I would 
like to welcome Secretary Perry back to the subcommittee.
    Mr. Secretary, DOE's FY2020 budget requests $31.7 billion, 
a $4 billion decrease from the FY2019 enacted level, and it 
includes extreme reductions to critical programs.
    Federal investments in clean energy programs, power grid 
operations, Next Generation energy technologies, and economic 
development for Tribal communities are drastically decreased in 
this proposal.
    Important departments such as the Office of Energy 
Efficiency and Renewable Energy (EERE) is reduced by 86 percent 
from FY 2019 levels, with the vast majority of these cuts, more 
than $700 million, coming from energy efficiency programs.
    Additionally, the budget proposal would slash the Office of 
Science, which funds the 17 national laboratories, by $1 
billion from the FY 2019 enacted level, while also eliminating 
the Advanced Research Programs Agency: Energy (ARPA-E) in FY 
2020.
    As you can imagine, many of these proposed cuts are 
nonstarters as far as I am concerned as these reductions would 
severely impact federally funded investment in clean energy 
research and development, harming our economy and global status 
as leaders in these areas.
    However, another issue that I would like to discuss with 
you today is the dire need for Federal investment in workforce 
training to help put thousands of Americans to work in good-
paying jobs and career.
    Mr. Secretary, just last month Brookings released a 
groundbreaking and eye-opening study entitled: ``Advancing 
Inclusion Through Clean Energy Jobs.''
    Some of the key findings in this report found that 
employees in clean energy jobs earn higher and more equitable 
wages than all workers nationally, with mean hourly wages 
topping national averages by 8 to 19 percent.
    The study found that clean energy jobs provide tremendous 
opportunities for low-income workers to increase their salaries 
by earning up to $5-$10 more per hour compared to other jobs.
    Despite higher wages, the study found that many clean 
energy jobs actually have lower educational requirements, with 
close to 50-percent of these workers holding only a high school 
diploma but earning higher wages than comparable peers in other 
industries.
    Mr. Secretary, as you may be aware, the energy workforce 
overall is currently dominated by older, white, male workers, 
and this also holds true within the clean energy sector, as 
women make up less than 20-percent of workers in the clean 
energy production and energy efficiency sectors, and less than 
ten percent of these workers are African American.
    Many of the recommendations for addressing these 
disparities are included in my workforce bill, HR 1315, 
including a focus on STEM education, aligning education and 
training with industry needs locally and regionally, and 
increasing apprenticeships and on-the-job learning.
    So, I look forward to hearing from you, Mr. Secretary, on 
the importance of investing in a program to train 
underrepresented workers as a way to meet the needs of 
industry, while also helping families and communities by 
providing employment opportunity and promoting economic 
inclusion.
    With that I yield the balance of my time and I now 
recognize my friend and colleague, Ranking Member Upton for 5 
minutes

    Mr. Rush. And with that, I yield back and I recognize the 
ranking member of the subcommittee, my friend from Michigan, 
Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, my friend and chairman.
    Secretary Perry, welcome. There is something about the 
Department of Energy that brings out enthusiasm about our 
Nation's energy and environmental future, and I think you 
demonstrate that enthusiasm better than just about anyone who 
has ever led that Department. And I welcome that enthusiasm and 
look forward to your testimony, obviously, this morning.
    Over the last decade, we have emerged as the world's 
leading producer of oil and natural gas, and at the same time 
we lead the world in CO2 emission reductions, a fact that 
proves that energy production and environmental protection are 
not mutually exclusive goals. So, today we are more energy 
secure than at any point in our Nation's history. Fifteen years 
ago, we thought that we were running out, and I believe that we 
owe this dramatic turnaround to free market competition, 
American ingenuity, and certainly technological innovations 
that were driven, in part, through research conducted by the 
DOE.
    Our energy abundance is supporting millions of American 
jobs and strengthening our economy, while at the same time 
providing our allies with a stable and secure new supplier. 
U.S. energy exports, especially LNG, also have the potential to 
help drive down emissions, which gives our trading partners 
another reason to do business with us.
    The shifting patterns of energy supply and use, both here 
in the U.S. and around the world, present both challenges and 
opportunities. I bring this up because the energy revolution 
represents a new economic fact of life for us. More communities 
are reliant on the supply of natural gas, for example, as more 
utilities use this energy for electric power. This raises 
another important issue for the Department, which is the core 
mission to ensure the reliable supply of energy to the public.
    In recent years, we have worked with you to address 
electric critical infrastructure security, including cyber, to 
make sure that DOE has the statutory authorities to protect and 
respond to risks in bulk power systems. And I commend your 
continuing focus on that mission which you demonstrated in your 
formation of the Cybersecurity, Energy Security, and Emergency 
Response Office, CESER.
    One area that is particularly of concern to most of us is 
the nexus between natural gas pipelines and electric-generating 
units. So, I would like to understand this morning what DOE is 
doing to assess risks in energy systems, particularly security 
and cybersecurity risks that threaten the supply of energy to 
our electricity systems. And while pipeline safety and security 
certainly falls under the jurisdiction of other agencies, DOE 
maintains the prime responsibility for ensuring the supply of 
energy. So, it is important to understand how you address these 
risks.
    This work on energy security also involves what happens in 
an emergency. What happens when there is a major disruption at 
a major event that impedes the supply of energy? The CESER 
office addresses this, but you also have offices under other 
Department components that assist State energy offices. I would 
like to get a sense of your priorities for working with States 
and territories to ensure that they have the information and 
tools to respond in emergencies.
    In the last Congress, committee members moved several bills 
that would have helped strengthen your authorities to 
coordinate and provide technical assistance to other Federal 
agencies, States, utilities, to help strengthen our defense 
against attack. This is an area that this committee will 
continue to press.
    In Michigan, the electric power system is moving to more 
renewable energy. In fact, we will be at 40 percent by 2040. 
For this to work economically in the long term, technology is 
necessary to continue to drive down costs and to enable the 
reliable supply during peak electric demand. And I would like 
to understand how your budget aligns DOE research priorities to 
address the needs for a cleaner electricity system.
    Finally, Mr. Secretary, there are other important 
priorities that are going to help our country develop and 
deploy the new clean technologies. As you know, one area of 
interest for this committee concerns nuclear energy, which 
provides one of the best paths to reducing greenhouse gas 
emissions. We have done a lot of work in this Congress. We 
intend to do a lot more. And on this point, I would much 
appreciate your proposal to include some funding to restart the 
defense of the Yucca Mountain license before the NRC.
    I would also like to note that we have competing 
subcommittee meetings this morning, but we are missing our good 
Texas colleague, Mr. Olson, who went back yesterday to look at 
some of the storm and flood damage in your great State.
    Again, Mr. Secretary, welcome. We look forward to working 
with you.
    I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Secretary Perry, there is something about the Department of 
Energy that brings out enthusiasm about our Nation's energy and 
environmental future. And I think you demonstrate that 
enthusiasm more than most who have led the Department. I 
welcome your enthusiasm and look forward to your testimony this 
morning.
    Over the past decade, we have emerged as the world's 
leading producer of oil and natural gas. At the same time, 
we're also leading the world in CO2 emissions reductions, a 
fact that proves that energy production and environmental 
protection are not mutually exclusive goals.
    Today, we are more energy secure than at any point in our 
Nation's history. Fifteen years ago, we thought we were running 
out. I believe we owe this dramatic turnaround to free market 
competition, American ingenuity, and technological innovations 
that were driven, in part, through research conducted by the 
Department of Energy.
    Our energy abundance is supporting millions of American 
jobs and strengthening our economy, while at the same time 
providing our allies with a stable and secure new supplier. 
U.S. energy exports, especially LNG, also have the potential to 
help drive down emissions, which gives our trading partners 
another reason to do business with us.
    The shifting patterns of energy supply and use both here in 
the United States and around the world present both challenges 
and opportunities.
    I bring this up, because this energy revolution represents 
a new economic fact of life for the United States. More 
communities are reliant on the supply of natural gas, for 
example, as more utilities use this energy for electric power. 
This raises another important issue for the Department, which 
has the core mission to ensure the reliable supply of energy to 
the public.
    In recent years, we have worked with you to address 
electric critical infrastructure security, including 
cybersecurity, to make sure DOE has the statutory authorities 
to protect and respond to risks in bulk power systems. I 
commend your continuing focus on this mission, which you 
demonstrated in your formation of the Cyber Security, Energy 
Security, and Emergency Response office, (CESER).
    One area that particularly concerns me is the nexus between 
natural gas pipelines and electric generating units. I'd like 
to understand this morning what DOE is doing to assess risks in 
energy systems, particularly security and cybersecurity risks 
that threaten the supply of energy to our electricity systems. 
While pipeline safety and security falls under the jurisdiction 
of other agencies, DOE maintains the prime responsibility for 
ensuring the supply of energy, so it is important to understand 
how you are addressing these risks.
    This work on energy security also involves what happens in 
an emergency, what happens when there is a major disruption or 
a major event the impedes the supply of energy.
    The CESER office addresses this, but you also have offices 
under other Department components that assist State energy 
offices. I would like to get a sense of your priorities for 
working with States and territories, to ensure they have the 
information and tools to respond in emergencies.
    In the last Congress, committee members moved several bills 
that would have helped to strengthen your authorities to 
coordinate and provide technical assistance to other Federal 
agencies, States, utilities, to help strengthen our defenses 
against attacks. This is an area Energy and Commerce members 
will continue to press.
    In Michigan, the electric power system is moving to more 
renewable energy. For this to work economically in the long 
term, technology is necessary to continue to drive down costs 
and to enable the reliable supply during peak electric demand. 
I'd like to understand how your budget aligns DOE research 
priorities to address the needs for cleaner electricity 
systems.
    Finally, Mr. Secretary, there are other important 
priorities that will help the Nation develop and deploy new 
clean technologies. As you know, one area of interest for the 
committee concerns nuclear energy, which provides one of the 
best paths to reducing greenhouse gas emissions.
    We have done a lot of work over the past several Congresses 
to ensure there is a framework for advanced nuclear energy, 
that we can more efficiently export U.S. nuclear technology, 
that we have a pathway for the spent fuel form our civil 
nuclear industry.
    On this latter point, I very much appreciate your budget 
proposal to include some funding to restart the defense of the 
Yucca Mountain license before the NRC.
    It seems to me, there is no quicker path to resolving the 
issue than getting a final license decision on the safety of 
Yucca Mountain. That will do more to inform public acceptance 
than anything else we can do.

    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes for his opening 
statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Rush.
    Let me thank the Secretary for appearing here this morning. 
I do really appreciate your being here, but I am still 
frustrated and disappointed about the fiscal year 2020 
Department of Energy budget because it is largely the same, 
what I call, out-of-touch document that we saw last year. The 
drastic cuts contained in President Trump's budget last year 
were rejected by Congress, and I expect that to be the case 
again this year. So, rather than talking about a budget that is 
essentially dead on arrival, I would like to discuss several 
energy policy issues, including energy efficiency, legacy site 
cleanup, nuclear waste, and cybersecurity.
    Unfortunately, the Department's track record on efficiency 
standards for consumer products is not good. Since the 
beginning of the Trump administration, the Department has 
ignored 17 legally mandated deadlines to finalize efficiency 
standards for common consumer appliances. And rather than 
updating those standards, DOE has spent its time working to 
discard lightbulb efficiency standards. And this rollback will 
lead to years of unnecessary electricity generation and carbon 
emissions just to power inefficient and outdated lightbulbs. It 
is unclear who benefits from this, absent a handful of 
lightbulb manufacturers.
    In fact, the electricity generators support the lightbulb 
efficiency, and 37 electric utilities sent a letter to DOE last 
week opposing the lightbulb rollback. They know that efficiency 
improvements reduce the need for new infrastructure and improve 
the reliability of the existing electricity supply.
    I am also concerned about the Department's environmental 
management program which is tasked with cleaning up the legacy 
wastesites where nuclear weapons were developed and built. The 
Oversight and Investigations Subcommittee held a hearing on 
DOE's growing environmental liability just last week, which, as 
of this year, has climbed to a staggering $377 billion. The GAO 
highlighted serious mismanagement at these sites and included 
the Department's mounting environmental liabilities on its high 
risk list.
    Now I recognize that this is a problem you did not create, 
Mr. Secretary. Unfortunately, the President's budget makes your 
job more daunting by cutting the environmental management 
program by over $700 million from last year's level. And this 
is concerning, and I hope we see better management of this 
program moving forward. We want to work with you to accomplish 
that goal.
    We must also find a solution to the storage and disposition 
of commercial spent nuclear fuel that currently resides at our 
Nation's nuclear power plants. Each year more nuclear power 
plants are ceasing operation. Until we come up with a Federal 
solution to this issue, that spent fuel will be stored onsite 
at those plants which no longer generate power. And this 
effectively freezes any efforts to redevelop those sites. So, 
we need interim storage solutions to bridge the gap until a 
permanent repository is licensed and constructed.
    Mr. Secretary, I hope to work with you and my colleagues on 
both sides of the aisle to give the Department the authority it 
needs to store this spent fuel at interim storage sites until 
we can permanently dispose of it. I know that both Mr. Upton 
and Mr. Rush are similarly concerned.
    Another area where I know we can work together is 
cybersecurity. I am troubled by the report last week that 
earlier this year there was, for the first time, the successful 
cyberattack on our electricity system. It was not a 
sophisticated attack and, thankfully, no consumer outages 
occurred, but that might not be the case next time. Our 
country's energy infrastructure is critical. We must ensure our 
Nation's electric system as well as the associated dams, 
railways, and pipelines are all protected from an attack.
    So, I am concerned by a recent GAO report I commissioned 
that found the Transportation Security Administration's 
pipeline security program has troubling weaknesses. At a 
hearing we held on pipeline safety and security last week, GAO 
informed us that TSA has only four employees to oversee the 
security of our Nation's nearly 3 million miles of pipeline, 
and that is, obviously, unacceptable and frightening.
    So, I support legislation introduced by Ranking Member 
Upton and Representative Loebsack that would allow DOE to 
develop a program to establish policies and procedures to 
improve the physical and cybersecurity of our Nation's 
pipelines. And I hope you work with us to enact that bill as 
well.
    Again, Mr. Secretary, thank you for being here tonight.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Secretary Perry, thank you for appearing before the 
committee this morning. While I appreciate you being here, I am 
extremely frustrated and disappointed that the Fiscal Year 2020 
Department of Energy budget is largely the same flawed, out of 
touch document that we saw last year. The drastic cuts 
contained in President Trump's budget last year were roundly 
rejected by Congress and I expect that to be the case again 
this year.
    So, rather than talking about a budget that's basically 
dead on arrival I would like to discuss several important 
energy policy issues, including energy efficiency, legacy site 
cleanup, nuclear waste and cybersecurity.
    Unfortunately, the Department's track record on efficiency 
standards for consumer products is, abysmal. Since the 
beginning of the Trump administration, the Department has 
ignored 16 legally mandated deadlines to finalize efficiency 
standards for common consumer appliances. Rather than updating 
these standards, DOE has spent its time working to discard 
lightbulb efficiency standards.
    This reckless rollback will lead to years of unnecessary 
electricity generation and carbon emissions--just to power 
inefficient and outdated lightbulbs. It's unclear who benefits 
from this, absent a handful of lightbulb manufacturers.
    Not even electricity generators support this action. In 
fact, 37 electric utilities sent a letter to DOE last week 
opposing the lightbulb rollback. They know that efficiency 
improvements reduce the need for new infrastructure and improve 
the reliability of the existing electricity supply.
    I'm also concerned about the Department's Environmental 
Management program, which is tasked with cleaning up the legacy 
waste sites where nuclear weapons were developed and built. The 
Oversight and Investigations Subcommittee held a hearing on 
DOE's growing environmental liability just last week--which, as 
of this year, has climbed to a staggering $377 billion. The 
Government Accountability Office (GAO) highlighted serious 
mismanagement at these sites and included the Department's 
mounting environmental liabilities on its ``High-Risk List.''
    I recognize this is a problem you did not create. 
Unfortunately, the President's budget makes your job even more 
daunting by cutting the Environmental Management program by 
over $700 million from last year's level. This is concerning, 
but I hope that we see better management of this program moving 
forward, and we want to work with you to accomplish that goal.
    We must also find a solution to the storage and disposition 
of commercial spent nuclear fuel that currently resides at our 
Nation's nuclear power plants. Each year, more nuclear power 
plants are ceasing operations. Until we come up with a Federal 
solution to this issue, that spent fuel will be stored onsite 
at those plants which no longer generate power. This 
effectively freezes any efforts to redevelop those sites.
    We need interim storage solutions to bridge the gap until a 
permanent repository is licensed and constructed. Mr. 
Secretary, I hope to work with you and my colleagues on both 
sides of the aisle to give the Department the authority it 
needs to store this spent fuel at interim storage sites until 
we can permanently dispose of it.
    Another area where I know we can work together is 
cybersecurity. I am extremely troubled by the report last week 
that earlier this year there was, for the first time, a 
successful cyber-attack on our electricity system. It was not a 
sophisticated attack and, thankfully, no customer outages 
occurred, but that might not be the case next time. Our 
country's energy infrastructure is critical. We must ensure our 
Nation's electric system, as well as the associated dams, 
railways and pipelines, are all protected from an attack.
    I am concerned by a recent GAO report I commissioned that 
found the Transportation Security Administration's (TSA) 
Pipeline Security Program has troubling weaknesses. At a 
hearing we held on pipeline safety and security last week, GAO 
informed us that TSA has only four employees to oversee the 
security of our Nation's nearly 3 million miles of pipelines. 
That's both unacceptable and frightening. I support legislation 
introduced by Ranking Member Upton and Representative Loebsack 
that would allow DOE to develop a program to establish policies 
and procedures to improve the physical and cyber security of 
our Nation's pipeline network. I hope you'll work with us to 
enact that bill into law.
    Mr. Secretary, thank you for testifying before our 
committee today. I yield back.

    Mr. Rush. The gentleman yields back. The Chair now 
recognizes the ranking member of the full committee, Mr. 
Walden, for 5 minutes for the purposes of an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Mr. Chair.
    Mr. Rush. Good morning.
    Mr. Walden. And thanks for having this hearing.
    Good morning, Mr. Secretary. Welcome back to the Energy and 
Commerce Committee. We are delighted to have you here.
    The Department of Energy's $32 billion budget proposal 
serves as a reminder of the broad range of defense, science, 
energy, and environmental activities that your agency pursues 
to perform its really important, critical I would say, national 
and energy security missions. The breadth of DOE's 
responsibilities is impressive, Mr. Secretary. DOE's work, 
which is conducted here in Washington, DC, and at national labs 
and field stations across the Nation, includes maintenance of 
our nuclear weapons, support for international nonproliferation 
programs, and nuclear propulsion work with the U.S. Navy. It 
includes the cleanup of Cold War era environmental 
contamination and management/disposal of spent nuclear fuel and 
high-level radioactive waste.
    DOE also supports cutting-edge, early-stage scientific 
research at our 17 national laboratories, including PNNL, which 
you and I got to visit in 2017. It establishes efficiency 
standards for appliances and equipment, conducts energy-related 
research/development, and demonstration across all forms of 
energy and technologies. It maintains the Strategic Petroleum 
Reserve and exercises authorities to respond to energy supply 
disruptions and maintain the resilience of our electric grid 
and pipeline systems.
    DOE also provides central energy data collection and 
analysis through the Energy Information Administration, very 
valuable data for our public policy work. Managing this 
portfolio, as we all know, remains a challenge, which is why I 
believe that it is so important to stay focused on DOE's core 
missions.
    During your time at the Department, Mr. Secretary, this 
committee, on a bipartisan basis, has sought to ensure that you 
have adequate resources and the statutory authorities required 
to align, manage, and fund programs to cost-effectively execute 
the Department's mission. Today, I hope you can update the 
committee on the progress you have made modernizing the 
Department of Energy and the challenges and opportunities that 
you see going forward.
    Just a week ago, as you heard earlier, our Oversight 
Subcommittee examined the DOE's work to address environmental 
liabilities and what can be done to accelerate cleanup and save 
taxpayer money. This is of particular interest to me, as you 
know, given the Hanford site across the Columbia River from 
Oregon in my district. You and I saw firsthand the vast scope 
of the work that remains, and I would like to hear from you on 
how you plan to accelerate the cleanup at Hanford.
    Hanford, as with other major cleanup sites, initially 
provided for our Nation's defense needs. In fact, over time it 
fostered technological and scientific capabilities that 
continue to benefit the Nation on energy, environmental, and 
security matters. The Pacific Northwest National Laboratory was 
established as an R&D complex at Hanford for the Manhattan 
Project. Now it serves a broader range of missions for the 
Nation. This technological and innovative capability that now 
threads through the Department's labs and field sites provides 
the tools for addressing future energy and security challenges.
    You can see this in the tremendous advances in DOE's 
supercomputing capabilities that we talked about yesterday. 
Originally developed for weapons work, DOE supercomputers now 
promise tremendous advances across the agency's missions and 
national priorities, from carbon-free fossil energy to helping 
cure diseases. So, I am excited about the potential to utilize 
DOE's advanced computing to support the next wave of American 
innovation.
    Now when you testified before us last year, Mr. Secretary, 
the committee had been moving legislation to help DOE enhance 
our energy security, spread the strategic benefits of our 
Nation's energy revolution, and further our drive to reduce 
emissions. For example, we worked to streamline the export of 
LNG and nuclear technology. We sought to enable future 
innovations that would lead to a more reliable, modern electric 
grid. We sought to increase DOE's capabilities to prepare and 
respond to emergencies, including from extreme weather events. 
We sought to ensure DOE is able to develop the infrastructure 
for advanced nuclear energy currently being pursued by 
companies such as NuScale in Oregon and others.
    So, I must say I am encouraged by the work you and your 
team are doing in support of transformative breakthroughs in 
carbon-free fossil energy, carbon capture technologies, 
advanced nuclear energy efficiency, advanced energy storage 
technologies, and modeling for increased energy resilience, all 
to lower greenhouse gas emissions and help consumers get 
affordable power.
    I would like to understand how DOE could more effectively 
support innovation, how it can help bridge the gap between the 
lab and commercial development while minimizing taxpayer risk. 
What can DOE do to attract and harness private capital to help 
accelerate deployment of future clean technologies? I also look 
forward to learning about your priorities to enhance DOE's 
capabilities to ensure the reliable delivery of power, given 
ongoing threats from bad actors.
    So, Mr. Secretary, how we harness DOE's incredible 
capabilities to support future energy innovation, security, and 
public interest, given ongoing budget constraints, will be our 
focus today, but I look forward to working with you on this and 
so much more going forward.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Secretary Perry, welcome back.
    The Department of Energy's 32-billion-dollar budget 
proposal serves as a reminder of the broad range of defense, 
science, energy and environmental activities the agency pursues 
to perform its important national and energy security missions.
    The breadth of DOE's responsibilities is impressive, Mr. 
Secretary. DOE's work, which is conducted here in DC and at 
national labs and field sites across the Nation, includes 
maintenance of our nuclear weapons, support for international 
nonproliferation programs, and nuclear propulsion work for the 
U.S. Navy. It includes cleanup of Cold War-era environmental 
contamination, and management and disposal of spent nuclear 
fuel and high-level radioactive waste.
    DOE also supports cutting-edge, early-stage scientific 
research at our seventeen National Laboratories, including 
PNNL, which you and I visited in 2017, Mr. Secretary. It 
establishes efficiency standards for appliances and equipment, 
and conducts energy-related research, development, and 
demonstration across all forms of energy and technologies. It 
maintains the Strategic Petroleum Reserve and exercises 
authorities to respond to energy supply disruptions and 
maintain the resilience of our electric grid and pipeline 
systems. DOE also provides central energy data collection and 
analysis through the Energy Information Administration.
    Managing this portfolio, as we all know, remains a 
challenge, which is why I believe it is so important to stay 
focused on DOE's core missions.
    During your time at the Department, this committee, on a 
bipartisan basis, has sought to ensure that you have adequate 
resources and the statutory authorities required to align, 
manage, and fund programs to cost-effectively execute DOE's 
missions.
    Today, I hope you can update the committee on the progress 
you have made modernizing the Department and the challenges and 
opportunities you see going forward.
    Just a week ago, our Oversight Subcommittee examined DOE's 
work to address environmental liabilities, and what can be done 
to accelerate cleanup and save taxpayers money. This is of 
particular interest to me, as you know, given the Hanford site 
sits across the Columbia river from my district. You and I saw 
firsthand the vast scope of the work that remains, and I would 
like to hear from you how you plan to accelerate cleanup.
    Hanford, as with other major cleanup sites, initially 
provided for our Nation's defense needs. Over time it fostered 
technological and scientific capabilities that continue to 
benefit the Nation on energy, environmental, and security 
matters. The Pacific Northwest National Laboratory was 
established as an R&D complex at Hanford for the Manhattan 
Project. Now it serves a broader range of missions for the 
Nation.
    This technological and innovative capability that now 
threads through the Department's labs and field sites provides 
the tools for addressing future energy and security challenges.
    You can see this in the tremendous advances in DOE's 
supercomputing capabilities. Originally developed for weapons 
work, DOE supercomputers now promise tremendous advances across 
agency missions and national priorities, from carbon free 
fossil energy to helping to cure diseases. I am excited about 
the potential to utilize DOE's advanced computing to support 
the next wave of American innovation.
    When you testified before us last year, the committee had 
been moving legislation that would help DOE enhance our energy 
security, spread the strategic benefits of our Nation's energy 
revolution, and further our drive to reduce emissions.
    For example, we worked to streamline the export of LNG and 
nuclear technology.
    We sought to enable future innovations that would lead to a 
more reliable, modern electric grid.
    We sought to increase DOE's capabilities to prepare and 
respond to energy emergencies, including from extreme weather 
events.
    We sought to ensure DOE is able to develop the 
infrastructure for advanced nuclear energy currently being 
pursued by companies such as NuScale out of Oregon.
    I must say I am encourages by the work DOE is doing to 
support transformative breakthroughs in ``carbon free'' fossil 
energy, carbon capture technologies, advanced nuclear, energy 
efficiency, advanced energy storage technologies, and modeling 
for increased energy resilience, all to lower greenhouse gas 
emissions.
    I would like to understand how DOE could more effectively 
support innovation, and how it can help bridge the gap between 
the lab and commercial deployment, while minimizing taxpayer 
risk. What can DOE do to attract and harness private capital to 
help accelerate deployment of future clean technologies?
    I also look forward to learning about your priorities to 
enhance DOE's capabilities to ensure the reliable delivery of 
power, given ongoing threats from bad actors.
    Mr. Secretary, how we harness DOE's capabilities to support 
future energy innovation, energy security, and the public 
interest given ongoing budget constraints, will continue to be 
our focus. I look forward to working with you on this.

    Mr. Rush. I want to thank the ranking member for yielding.
    And now, it is my responsibility to introduce our witness 
for today's hearing, the honorable Rick Perry, who is the 
Secretary of the United States Department of Energy. Mr. 
Secretary, we certainly want to welcome you to the Energy 
Subcommittee, and we all look forward to your testimony and 
eagerly await your participation in this hearing.
    So now, I will recognize the Secretary for 5 minutes for 
the purposes of an opening statement.
    Mr. Secretary, you have been here countless times and you 
are well aware of the lighting system. So, we don't want to 
take time to explain something that you already know. So, with 
that, we recognize you for 5 minutes for an opening statement.

    STATEMENT OF RICK PERRY, SECRETARY, DEPARTMENT OF ENERGY

    Mr. Perry. Mr. Chairman, thank you very much. And to the 
Members, thank you all for your kindness and hospitality, those 
of you that I have had the opportunity to be in your offices 
and in your districts as we are going forward.
    Mr. Chairman, you have been so kind, as Members of both 
sides of the aisle, to allow us to show you a brief video that 
I think will be substantially more interesting than me going on 
here for a minute and a half. But if I could, I would like to 
direct your attention over to----
    Mr. Rush. Hearing no objection, so ordered.
    Mr. Perry. Yes, sir, thank you.
    [Video played.]
    Mr. Perry. Mr. Chairman, again, thank you for the 
opportunity to show that. I think the stuff you talked about, I 
reflect a lot of excitement about the Energy Department and the 
men and women who work there, the technology that comes out of 
that. And you are absolutely correct. You all have heard me say 
this before. This is the coolest job I have ever had in my 
life.
    And I might add, Mr. Pallone, this is the most interesting 
job I have ever had in my life. Not the best, but the most 
interesting.
    [Laughter.]
    Anyway, to each of you, it is my privilege to be before you 
today and to respond to the 2020 budget request for the 
Department. The budget is a request to the American people, 
through you, the Representatives, and Congress to secure 
America's future through energy independence, scientific 
innovation, and national security.
    As I have already said, this is an exciting time, exciting 
time to be at the helm of DOE. It continues to be a great 
privilege to serve as the 14th Secretary of Energy. I look 
forward to working with each of you as we go forward, passing a 
budget that invests in the Nation's priorities in energy and 
science and national security, while at the same time 
continuing our shared support of innovations that have led to 
America's world-leading, yet often overlooked progress in 
reducing energy-related emissions.
    When I appeared before the committee last year, I committed 
to rebuild and restore our Nation's security, to protect our 
critical energy infrastructure from cyber threats, to improve 
the resilience and the reliability of the Nation's electrical 
system, to invest in early-stage, cutting-edge research and 
development, to advance our leadership in exascale and quantum 
computing, and to continue to seek a Federal storage repository 
for the Nation's spent nuclear fuel.
    And concerning that last point, let me thank each of the 
members of the committee, certainly on both sides of this 
aisle, for you joined us in searching for a solution to deal 
with the waste disposal needs. I am proud to report that, since 
last year, DOE has advanced each of these goals that I just 
cited by investing in reliable, affordable energy, 
transformative innovation, national security. We are 
approaching the dawn of, as I made reference to in that film, 
the new American energy era, a time of energy abundance, 
security, and, yes, even independence.
    This past fall I fulfilled a commitment to visit all 17 of 
the national labs, and I got to witness firsthand the brilliant 
work that is performed by these dedicated professionals.
    Mr. Rush. Mr. Secretary, I must say that you are on a hard 
deadline.
    Mr. Perry. Yes, sir.
    Mr. Rush. So, could you move----
    Mr. Perry. Rock and roll, sir. I am ready.
    Mr. Rush. OK. Sorry.
    Mr. Perry. No, sir.
    Mr. Rush. Meaning no disrespect. You are on a hard deadline 
here.
    Mr. Perry. I am working for you, sir.
    Mr. Rush. All right.
    [The prepared statement of Mr. Perry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Rush. That concludes the opening statement, and I want 
to recognize myself for 5 minutes for the purposes of asking 
questions of our witness.
    Mr. Secretary, as you made me aware, the energy workforce 
overall is currently dominated by older, white, male workers. 
And this is also true within the clean energy sector, as women 
make up less than 20 percent of workers in the clean energy 
production and energy efficiency sectors, and less than 10 
percent of these workers are African-American. Many of the 
recommendations for addressing these disparities are included 
in my workforce bill, H.R. 1315, including a focus on STEM 
education, aligning education and training with industry needs 
locally and regionally and increasing apprenticeships and on-
the-job learning.
    Mr. Secretary, within the past month alone, there have been 
three different studies that have been released discussing the 
need for a younger, more diverse, trained workforce within the 
energy sector. There was the Brookings study that I cited in my 
opening statement, a report by the Solar Energy Industries 
Association entitled, ``Diversity Best Practices Guide for the 
Solar Industry,'' and an Alliance to Save Energy study 
entitled, ``Growth in Energy Efficiency Demands Investment in a 
Highly Skilled Workforce''.
    Mr. Secretary, during your time as Secretary, have you 
personally heard from companies within the energy sector 
regarding their dire need to find trained workers? Are you 
aware that the energy workforce overall is mostly comprised of 
older, white men and that many sectors are looking to diversify 
their labor force by going into previously underrepresented 
communities? Do you believe that it is worth Federal investment 
to support initiatives to accomplish this goal?
    Mr. Perry. Mr. Chairman, I am glad that you are excited and 
kept us focused on this issue of the potential in the clean 
energy sector in this country. According to the Bureau of Labor 
statistics, solar installers and wind technicians are projected 
to be two of the fastest-growing occupations in the U.S. as we 
go forward, and leading even the projected growth and demand 
for healthcare professionals. So, I think you are a spot-on in 
your focus on this, in developing that workforce.
    American wind energy--Mr. Veasey, who is from my home 
State, he knows the work that we did together to expand the 
wind energy in the State of Texas. It produces more wind than 
all but five other countries, and an incredible impact into 
those rural areas where that showed up, and then, obviously, 
the jobs that get created, and what have you. It is a major job 
creator in America today. There are over 105,000 U.S. workers 
who have wind-powered careers. All 50 States are affected by 
this. And I think there are 242,000 U.S. workers that are 
employed in the solar side of it. So that is just good news, 
and we look forward to expanding that. Ninety percent growth in 
the solar side in the last 2 years in this country.
    Mr. Rush. Mr. Secretary, so you would think that this would 
be a priority for Federal investment to----
    Mr. Perry. Yes, sir. Yes, sir.
    Mr. Rush. OK. Thank you.
    Mr. Secretary, both the majority and minority sides have 
been touch with your agency about obtaining data on the funding 
levels for workforce programs that the Department currently 
conducts. Understanding your staff has been working vigorously 
to get us that information, but I really wanted to know and to 
remind you that we are still waiting to hear back from you. And 
it is important to understand that this is, indeed, a priority 
for Members of both sides of the aisle. Will you commit to this 
committee----
    Mr. Perry. Sure.
    Mr. Rush [continuing]. That you will make sure that we 
receive the data in a timely fashion?
    Mr. Perry. Yes, sir. Yes, sir. And we have a couple of 
programs of which you have been briefed, and your staff has 
been briefed on. The Equity in Energy is the name of the new 
program. It was called Diversity in Energy, but we changed it 
over to Equity in Energy. And you will have that data, and we 
are working hard.
    And just as an addition, Mr. Chairman, these XLab projects 
that we are working on where we bring the private sector in to 
our national labs, as a matter of fact, I think there is one 
coming in Argonne. You will, obviously, have more than a 
passing interest in Argonne because of your home of residence 
there in Chicago. But, anyway, it is an artificial intelligence 
and machine-learning project that is going to be working in the 
early fall of 2019. So, we obviously will invite you and your 
staff to be there as we do that.
    But a great opportunity for us, not only to showcase the 
clean jobs, but also to recruit those young men and women, a 
diverse workforce, and maybe prick their interest in science 
and technology, engineering, and in math, to bring them into a 
future that is going to be not only exciting, but, obviously, a 
great opportunity for them to better their lives.
    Mr. Rush. I want to thank you, Mr. Secretary.
    The Chair now recognizes Mr. Walden, the ranking member on 
the full committee, for the purposes of questioning the 
witness.
    Mr. Walden. Thank you, Mr. Chairman. I want to thank Mr. 
Upton, too, for yielding. I have a meeting I have to get to 
down at the White House.
    Mr. Secretary, thanks again for being here.
    Mr. Perry. Sure.
    Mr. Walden. Thanks for your leadership at the agency. We 
work with a number of presidential appointees on this 
committee, and you are one of the best we work with in terms of 
communication with your team, and going back and forth with us 
on these energy policy issues.
    Now there is one you and I talked about last year, and I 
think probably the year before, and everything else. And it 
should come as no surprise, related to the proposal to sell off 
the Bonneville Power Administration and the idea of selling it 
off. So, the question is, the idea of selling off Bonneville 
Power Administration's electricity transmission assets and 
abandoning cost-based rates is broadly rejected by practically 
every Member of the Pacific Northwest Congressional Delegation 
in the House and the Senate. Can you assure me the Department 
of Energy will not sell off BPA unless Congress provides 
explicit authorization?
    Mr. Perry. I can assure you with great assurance that we 
will follow your direction, sir, and this committee, and 
Congress' direction.
    Mr. Walden. Thank you, Mr. Secretary.
    Now let's move on to innovation. I note this past week DOE 
announced a contract to build the Frontier supercomputer at Oak 
Ridge National Laboratory, which is anticipated to debut as the 
world's most powerful computer. Can you talk about the research 
benefits of DOE's supercomputer program?
    Mr. Perry. That will be difficult in a short period of 
time, but I will do my best and I will talk fast, which is a 
pretty good test for an Aggie.
    Mr. Walden. For a Texan.
    Mr. Perry. But the breadth of what these supercomputers are 
allowing us to get answers for of questions that have vexed us 
in the past just because we did not have the computing 
capacity, we didn't have the bandwidth, if you will, to put all 
the data in to get the answers back. These computers, here is 
the speed of which they are, a billion billion calculations per 
second. I mean, I will be honest with you, I can't get my 
little mind around that, the ability to manage that much data.
    But it gives us the potential in health care, for instance, 
to be able to find some cures for cancer, to go back through 
every dataset that has been done since time immemorial, on drug 
tests that ended up over in a pile. They were failures because 
we couldn't get to the final answer. Go back and take all of 
that data, and run it through these computers, because they are 
so powerful. And we will find new drugs to work on.
    In brain science, and this is where Mr. McNerney and I were 
talking about it. I know of his interest in traumatic brain 
injury and the work that is being done there. We are in a 
partnership with the University of California, San Francisco, 
Dr. Geoffrey Manley out there, finding new solutions on 
traumatic brain injury, post traumatic stress, CTE, which 
obviously the professional football league is very interested 
in some of those studies. And that is just in the health care 
side.
    Mr. Walden. What can you say about energy? Can we get to 
where coal could be burned with no emissions, do you think?
    Mr. Perry. Here is my example, Mr. Chairman. Fifteen years 
ago, people told us we had found all the energy that there was 
to be found, you know, just get used to it. We have found it 
all. Even if you find any more, you won't be able to afford to 
produce it. Well, that conventional wisdom was massively wrong. 
I will suggest to you, those that say you can't use coal, for 
instance, in a clean, almost emission-free way, they can be 
proven wrong, too. And it is going to be these supercomputers 
that are working with our scientists. And I will suggest to 
you, the private sector and our national labs in partnership to 
find some energy solutions to this incredibly abundant resource 
that we have in this country. So, you are absolutely correct.
    Mr. Walden. Let me go to a different topic, if I could. We 
have spent a lot of time in this committee looking at nuclear 
waste storage. We appreciate your leadership in this, and we 
hope to renew that effort going forward, but, also, at how we 
harness new nuclear energy technologies. And so, I know that 
the Department is looking at doing some work on micronuclear as 
well as some of the other proposals, NuScale, and others. In 
the 20 seconds I have left, can you just give us a quick update 
on small modular and micro?
    Mr. Perry. Yes, sir. The work that is being done in the 
agency, along with the private sector, INL, Idaho National Lab 
and NuScale, they are in a partnership out there. I know Bill 
Gates and his company, Terra Energy, they are a different 
technology, but these small modular reactors and these 
microreactors, the microreactor is even smaller from the 
standpoint of using these in our military and in places around 
the world.
    And the small modular reactors also, not only are they 
smaller, they are cheaper, they are easier to build, and they 
are safer. The fuel that they use is safer. So, the future of 
clean energy has never been brighter than it is today.
    Mr. Walden. Can you give me the horizon? Are we talking 2 
years, 10 years, 30 years?
    Mr. Perry. 2025, if I am correct on that number, 2025 is 
the projected date on some of the SMRs to be out with their 
prototypes.
    Mr. Walden. All right. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes for questioning the 
witness.
    Mr. Pallone. Thank you, Chairman Rush.
    I wanted to go back to the lightbulbs, Mr. Secretary. You 
recently proposed to rescind rules that would extend 2020 
lightbulb standards to the full range of bulb shapes and sizes 
commonly used in U.S. homes. And the effect of your proposed 
rule is to take back a standard that would save the average 
U.S. household about $100 per year, and by saving electricity, 
would deliver very large reductions in carbon emissions. The 
comment period on the proposed rule closed last Friday. So, can 
you tell me how many comments you received in support of this 
proposed rule and who submitted comments in support?
    Mr. Perry. Mr. Chairman, I will get that information to 
you. I don't have it at the tip of my--if I may, can I respond, 
just to kind of share with you what we are doing?
    Mr. Pallone. Well, look, you can get back to me with the 
comments. I mean, I have something that was prepared by staff 
that gives us some information, like a summary, about it. So, I 
wanted to discuss that, if I could.
    Mr. Perry. Yes, sir.
    Mr. Pallone. But if you would get back to me in answer to 
that previous question?
    Mr. Perry. Absolutely.
    Mr. Pallone. I appreciate it.
    Now the summary I have--and I am not going to introduce it 
for the record because I would rather get your actual official 
document, if we could. But while the Department has been slow 
to get all comments posted so far, those opposing your rollback 
so far include more than 40 electric utilities; the U.S. 
Climate Alliance, which includes Republican and Democratic 
Governors from 24 States representing 60 percent of the U.S. 
population, and a wide range of consumer advocates, energy 
efficiency groups, and environmental groups. And also, 15 State 
Attorney Generals have opposed the proposal. To date--again, I 
only have the information so far--to date, the only 
organizations on the record supporting your action are the 
lightbulb manufacturers and their trade association. So, you 
have more than 15,000 citizen comments so far have been filed, 
with the vast majority opposed to the rollback.
    So, again, Mr. Secretary, why is it that at the same time 
that DOE has missed 17 congressionally mandated legal deadlines 
for updating a wide range of appliance standards, the 
Department is spending scarce time and taxpayer money on 
eliminating standards for lightbulbs that will save consumers 
money and cut carbon emissions? Why is it that you are so 
intent on going backwards on the lightbulb efficiency? Why has 
this become a priority?
    Mr. Perry. Mr. Chairman, I think the bigger issue from my 
perspective is the challenge with the way that the statute is 
written. I will tell you, we are working hard to meet our legal 
obligations on this, but the deadlines for issuing regulations, 
whether it is appliances or equipment, I have instructed the 
staff to develop a plan to address the missed deadlines and 
that plan is in the forthcoming spring unified regulatory 
agenda.
    Mr. Pallone. But, you see, Mr. Secretary, no one--I mean, I 
only have a limited amount of time, and I appreciate your being 
here--but no one seems to agree with your proposal, not the 
utility industry, not the 15 State AGs, not consumer advocates. 
As far as I can see, the only voice supporting your action is a 
handful of companies that want to keep on selling outmoded, 
grossly inefficient lightbulbs that are a bad deal for 
consumers and harm the environment. So, I just don't agree, and 
I don't really even understand your argument.
    But, anyway, let me move on to the LNG. Mr. Chairman, we 
have only got a minute and a half here. Last December, DOE 
determined that liquefied natural gas export volumes to non-
free-trade agreement countries equal to 52.8 billion cubic feet 
a day, a volume equal to 71 percent of U.S. demand, is 
inconsistent with the public interest under the Natural Gas 
Act. And DOE also stated it intends to approve LNG export 
applications of those countries up to this volume. And then, 
DOE has also approved LNG export volumes to free trade 
agreement countries equal to 58.1 billion cubic feet per day, 
and my understanding is that LNG export application approvals 
are for periods of 20 to 30 years.
    My concern with this, because we are running out of time, 
is the impact of these approvals on domestic supply and 
pricing; that these approvals are going to have a greater 
demand for more pipeline infrastructure. The communities and 
landowners bear the cost of building out the support for this 
enterprise. Have you ever denied any export application for 
LNG? Not just you, but has the DOE ever denied an export 
application?
    Mr. Perry. I can't speak for prior administrations, but I 
can assure you that we have not, and if I am still the 
Secretary of Energy, we will not, because we have the most 
massive supply in the world, sir. The issue, if the question 
here is there are some folks over in the Northeast that are 
concerned about the availability or the cost of natural gas, it 
has got a lot more to do with the inability to build a pipeline 
across New York, for instance, to get into the Northeast than 
it does with our supply.
    The American natural gas-producing regions of this 
country--and we have only seen the tip of the iceberg. That is 
not my quote. That is the quote of the International Energy 
Agency head, Fatih Birol, last week when I was in the EU, 
telling the Europeans that we have more gas than they can 
purchase. So, I would suggest that this country is really 
blessed to have this low-emissions, this clean-burning fuel, 
and being able to build the infrastructure out across the 
country, so that all Americans can enjoy that fuel.
    The folks in the Northeast are paying 40 percent more for 
their residential and 60 percent more for their commercial 
electricity because of the inability to move that natural gas 
into those regions and, then, use it. And I haven't even talked 
about the negative effect on our environment because of the 
fuel oil that is having to be burned instead of natural gas.
    Mr. Rush. Mr. Secretary, we have a lot of Members who want 
to ask questions.
    Mr. Perry. Yes, sir.
    Mr. Rush. So, will you be a little bit more succinct with 
your answers?
    Mr. Perry. Yes, sir.
    Mr. Rush. All right.
    Mr. Perry. That one, I am just really passionate about, 
sir.
    Mr. Rush. Yes, I understand, but you have a hard deadline.
    Mr. Perry. Yes, sir.
    Mr. Rush. The Chair now recognizes the gentleman, the 
ranking member of the subcommittee, Mr. Upton, for 5 minutes.
    Mr. Upton. Well, thank you, Mr. Chairman.
    I would like to get through three questions, if I can.
    A number of decades ago, I worked for President Reagan, and 
I can remember him, when he signed the Nuclear Waste Policy 
Act, saying that this was going to be the bill that actually 
resolved the issue, certainly within the next 20 years. We are 
now 40 years later, and this committee, as you know, voted 49 
to 4 in the last Congress, widely bipartisan, to move John 
Shimkus' bill, which we passed with a pretty good margin on the 
House Floor.
    For us to finish the job, the one thing that we really need 
to spend money on, I think, is to complete the licensing 
process at the NRC. Do you agree that that is the case? And can 
you commit to trying to help us get to that final stage?
    Mr. Perry. Yes, sir. If you don't have the permitting 
process finalized, then you are not going to--this is a map; 
every one of those red States has waste, and that is your plan. 
That is the repository for America.
    Mr. Upton. And that is why we have to complete the 
licensing process.
    Mr. Perry. Yes, sir.
    Mr. Upton. We have to get that.
    Mr. Perry. If we don't finish that licensing--and, listen, 
I am not a Yucca-or-bust person. I am let's find a solution to 
this. Yucca is one of the solutions. But if you do not have a 
permitting process that is finalized, you are never going to be 
able to move this out of your States. And there are 38 of them 
here. Your States are going to be the ones that are the final 
solution for this.
    Mr. Upton. That is a good answer. That is a good answer. 
You can go to ``Double Jeopardy'' now, right.
    There was a report earlier this week, a public report, that 
disclosed a cyberattack on March 5th. I don't know if you saw 
this story. ``The Cybersecurity 202: a cyberattack just 
disrupted grid operations in the U.S. But it could have been 
far worse. A recently disclosed hack at an electric utility in 
the Western U.S. crosses a disturbing new line.'' What can you 
tell us about that a couple of months later?
    Mr. Perry. Yes. Well, we received the report about a 
denial-of-service condition that occurred at an electric 
utility. I think it was on or around the 1st of March of 2019. 
And the incident did not impact generation, the reliability of 
the grid, or cause any customer outages. We were in contact 
with that utility, and they are managing the incident 
coordination with their firewall manufacturer.
    Mr. Upton. Any lessons learned from that experience?
    Mr. Perry. Well, yes, when you get a direction to put a 
patch on your firewall, you need to put your patch on the 
firewall. I mean, it is pretty simple. They made an error. And 
so, we are trying to reiterate to the utilities, no matter what 
their size, when you get a directive to protect your firewall, 
you need to do it.
    Mr. Upton. And are you working with the EEI to make sure 
that they pass that word along to all their member companies as 
well?
    Mr. Perry. Yes, sir, and the Subsector Coordinating 
Council, the folks that deal with these issues, and our 
counterparts, if you will, in the private sector, yes, sir.
    Mr. Upton. So, as you know, we are currently working, I 
think, on a Pipeline and LNG Facility Cybersecurity 
Preparedness Act. I have introduced a bill, H.R. 370, which 
codifies some of what DOE is currently doing on the 
coordination side and by authorizing R&D in pilot demonstration 
projects. Has the Department looked to this bill at all? Can 
you offer some support, some guidance in terms of what we need 
to do to make sure that we diminish any threat of cyberattack 
on our Nation's pipeline system?
    Mr. Perry. Yes, sir. Obviously, we will give you any 
technical information, any technical help that we can on 
developing it. And whatever you all decide, we are going to 
implement. We are coordinating and working with any threats 
that are out there, best practices. We manage the information 
flow with the private sector, I think, in a fairly positive 
way, in a fairly transparent way, to mitigate any of the 
challenges that we have got to best practices. The investment 
incentives, the cost recovery practices in the energy sector, 
pipeline security, we touch all of those. And I think we have 
got, for pipelines and the electrical grid, I think we have got 
a good flow of information and we are as on top of this as we 
can be.
    Mr. Upton. I appreciate your leadership.
    And I yield back.
    Mr. Rush. The Chair now recognizes Mr. Peters from 
California for 5 minutes.
    Mr. Peters. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Last year we had a similar hearing where we were critical 
of the President's proposed budget. They cut a lot of things, 
and I think you were candid that some of this was not your 
idea. And ultimately, we were able to restore some of the 
investments that I think were important.
    Let me make two observations about that this year, and 
then, I had a particular question for you. The first is on 
ARPA-E. The Trump administration's continued attempt to fully 
defund ARPA-E, which is the basic research component of the 
Department of Energy, it just doesn't make any sense. It is 
inconsistent with your own initial video that talks about 
innovation. I think we would all like to get behind that.
    One of the largest ARPA-E grants ever awarded was in my 
district to a company called Achates Power. They successfully 
developed and opposed-piston engine that creates more power 
with lower toxic emissions and increased fuel efficiency, and 
it is such a great advance that it is now on the way to being 
the future engine of many U.S. Army vehicles. And I don't think 
you would dispute that that was an important investment for the 
country. It is not the kind of thing we want to defend.
    Second, with respect to carbon capture, as you may know, I 
introduced the USE IT Act with my colleague from West Virginia, 
Mr. McKinley. There is an example of a West Virginian and a 
Californian working together on energy and an environmental 
issue. I think that is a good idea. It focuses on the need for 
increased investment in carbon capture utilization and 
sequestration technology as well as direct air capture 
technology.
    The International Panel on Climate Change, IPCC, has said 
that carbon capture is going to have to be part of any strategy 
to get us to net carbon zero by mid-century. The Department of 
Energy, your own handout here says that you want to reduce the 
cost of carbon capture utilization and storage. That is great, 
but the commitment is not reflected in a 65 percent cut to CCUS 
in this budget. I am not asking for a response on that, other 
than to tell you that it is obvious that it is inconsistent 
with your goals, Mr. Secretary, as they are stated.
    But I did want to ask you a particular question about 
subsidies. Earlier this week, the IMF updated a working paper 
on global fossil fuel subsidies; reported the annual global 
subsidy for fossil fuels at $5.2 trillion. The United States 
contributes the second largest portion of that, behind only 
China, subsidizing energy efforts that are not part of our 
sustainable future. According to the report, quote, ``Removing 
those subsidies would lower global emissions by 28 percent and 
deaths from air pollution by 46 percent.'' It is my 
understanding that the amount that the DOE proposes to 
subsidize fossil fuels is $489 million. Is that your 
understanding?
    Mr. Perry. If that is what your numbers show, sir. I don't 
know that off the top of my head, but----
    Mr. Peters. This is from the handout.
    Mr. Perry. Yes, sir. Yes, I would stick with that.
    Mr. Peters. And I would just ask you, how is it appropriate 
for us to subsidize parts of the fossil fuel industry that are 
so mature? Is that really the right role for government? And I 
am asking you as a rock-ribbed conservative Texan. Is that 
really the way we want to use the money, government taxpayer 
money, to subsidize a mature industry like fossil fuel 
extraction?
    Mr. Perry. Here is what I see, sir. I see the United States 
and our fossil fuel industry, particularly through the 
development of our natural gas, then turned into liquefied 
natural gas--we drove down the emissions in the State of Texas 
by a substantial margin. I will just give you the numbers 
quickly. Sixty percent on SOx, 50 percent on NOx, almost 20 
percent on the carbon dioxide side of it, in the period of time 
from about 2007 through 2015, while I was the Governor there, 
while we were leading the Nation in the creation of jobs and 
wealth, I might add. That occurred because of the transition 
that we did from old, inefficient power plants to clean-burning 
natural gas.
    So, I will make the statement--and I think we will stand by 
it--that the tax incentives, the other ways that they calculate 
a subsidy of the fossil fuel energy, that will have a massive 
amount of impact as American LNG goes to Europe to take out 
old, inefficient power plants and transition away from coal 
plants in Germany, for instance. So, I think that the tax 
subsidies that occur to continue to get American technology 
into these countries and American natural resources, like our 
LNG, is absolutely a good investment of our tax dollars.
    Mr. Peters. Mr. Secretary, just so we are not confused, I 
am not even talking about the tax subsidies. This is direct 
spending on subsidies out of the Department of Energy.
    Mr. Perry. I still support them, sir.
    Mr. Peters. And I would say, from my perspective, and I 
think if you look at your goals, to be able to spend $489 
million on ARPA-E, which was $366 million last year, is a lot 
more cost-effective.
    And I yield back.
    Mr. Rush. The Chair now recognizes Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you, Mr. Chairman.
    And, Mr. Secretary, thank you very much for being with us 
today. Good to have you back.
    The Department of Energy has important responsibilities to 
secure the Nation's energy infrastructure against all hazards, 
including severe weather, reduce the risk of potential 
cyberattack, and to assist with energy restoration and recovery 
efforts. DOE's newly created Office of Cybersecurity, Energy 
Security, and Emergency Response leads these efforts.
    And I would like to kind of follow up on the ranking 
member's questions a little bit on strengthening. I know you 
talked about the situation with the patch that should have 
occurred, but would you talk about your efforts to strengthen 
the Nation's energy infrastructure against cyberattacks?
    Mr. Perry. Sure. That is the reason that the CESER office 
was stood up. The Department of Energy is the sector-specific 
agency dealing with our electrical grid. We obviously work with 
our partners at DHS and at U.S. DOT on the pipeline side of it, 
too. But the SCADA systems and the cybersecurity aspects, 
cybersecurity is an integral part of energy security. And that 
is assessing the risks, the vulnerabilities that occur, both by 
natural disasters and by manmade. So, it is not all about the 
manmade attacks, if you will, the viruses that get put in 
place. This is also about how are we going to deal with 
hurricanes; how are we going to deal with polar vortex that 
comes in and knocks out--how you manage and have this diverse 
portfolio.
    I think one of my jobs is to make sure that Americans 
understand that, if we don't have this baseload of electricity 
out there that is 24/7, and frankly, onsite, which is basically 
either nuclear or coal, because all the others are 
interruptible in some form or fashion. But I think it is good 
to have that conversation with Americans, that if we had a 
triple whammy, if you will, if we had a polar vortex and we had 
a cyberattack that occurred at the same time, along with a 
physical attack on a pipeline, how that could massively affect 
the Northeast, for instance, the city of New York with the 
millions of people that live there.
    So, we want to make sure that Americans know, No. 1, that 
we have the technical ability to deal with this; that we are 
very good at analyzing and blocking the attacks that come, and 
we keep our private sector partners advised of this. And we 
have a number of our private sector utility types that come in 
that we have the ability to brief them on classified 
information about what is happening in the cybersecurity front.
    Mr. Latta. I appreciate that because I know in my district 
and when I go across the State of Ohio with the folks that are 
not only producing the power, but transmitting that power, the 
amount of time and energy, and all, that they are taking now 
just because of the cyber threats that they face every day, and 
it is interesting, when you talk to the customers out there, 
they don't realize what is being transferred over just to try 
to make sure that those threats aren't done. And I am glad and 
it is very important that information is transmitted back to 
all these individuals and companies that you deal with.
    If I could, in my last minute, real quick, if I may, I am 
also very interested in the ENERGY STAR program, which you may 
know had the appliance portion managed by DOE from 1994 to 
2009. In 2009, the previous administration moved the appliance 
manufacturers into have a dual-management that is split between 
DOE and EPA. And so, these companies out there now are faced 
with duplicative reporting requirements and a lot more red tape 
that is added up to about $35 million annually, according to 
the Association of Home Appliance Manufacturers. And just in my 
last 30 seconds, would it make more sense and fit with the 
administration's goal to cut that red tape to return that 
management back to DOE?
    Mr. Perry. I am sorry, as your last question again, sir? I 
was distracted. I apologize.
    Mr. Latta. Would it make more sense to have DOE on the 
ENERGY STAR split between EPA and DOE, have it just being 
underneath the DOE?
    Mr. Perry. Yes, sir.
    Mr. Latta. I appreciate that answer.
    Mr. Chairman, my time has expired and I yield back.
    Mr. Rush. The Chair now recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you.
    Secretary Perry, welcome back to the committee.
    Investment in research and advanced technologies, it is 
critical if we are going to reduce harmful emissions from 
fossil energy sources like coal and gas. And in your testimony 
you mentioned your commitment to R&D, particularly for fossil 
energy. But the DOE budget cuts funding for fossil energy 
programs by 25 percent, including 24 percent to the fossil 
energy research and development, which is vital for funding the 
National Energy Technology Labs in Pittsburgh and in 
Morgantown, West Virginia.
    Mr. McKinley and I had sent a letter requesting $100 
million increase in this category, and what we got was $178 
million decrease. I would just like to say that what you say 
your goals are and what your budget says are diametrically 
opposite, and it is puzzling to see where the commitment is.
    Let me also echo what Mr. Peters says. It is craziness to 
eliminate ARPA-E. I mean, this is a program that is focused on 
high-risk, high-reward innovation, particularly when it is 
clear that the industry is not going to take on this kind of 
risk and other DOE offices haven't quickly produced this type 
of early-stage, high-risk technology. Cutting this program 
makes absolutely no sense. And again, it seems contrary to the 
goals that you state that the Department has.
    Now let me give you a compliment. I am glad to see that 
your budget focuses on energy storage. I have introduced the 
Energy Storage Tax Incentive and Deployment Act to expand the 
investment tax credit to encompass battery storage 
technologies. I think that is a critical component needed to 
expand our use of renewables and strengthening our grid. So, I 
appreciate your focus on this initiative and I look forward to 
working with you on that.
    Let me ask you, Secretary Perry, yesterday Exelon announced 
that Three Mile Island would prematurely retire in September. 
This means the loss of carbon-free baseload power and it means 
the loss of a lot of good-paying jobs. And we know that, as 
nuclear plants are prematurely being retired, this energy is 
being replaced by coal and natural gas, which is putting more 
greenhouse gases up into the air. Now I have had concerns with 
the NOPR proposal or the FirstEnergy 202(c) proposal, but I 
still support the nuclear industry because we can't meet our 
climate change goals and obligations without it. So, tell me, 
what are other options that are available to address this issue 
for nuclear power plants across the country that are starting 
to close down prematurely?
    Mr. Perry. Mr. Doyle, we totally agree with you on your 
observation about you cannot meet your goals, no matter where 
you may land in the spectrum out there, for the fight to reduce 
emissions without nuclear. So, you ask what some of the options 
are, and I think they are twofold.
    One, having been a Governor, I think it would behoove the 
States that have nuclear plants to look at whether or not they 
want to at the State level subsidize those plants. Listen, I 
don't necessarily think that the word ``subsidy'' is a bad 
term. I believe that it is up to the people to decide, do you 
want to have these options, this diversity of energy sources? 
Nuclear is, I think, one of the most important ones.
    So, that is on the old plants that are there today and to 
extend their life cycles. And those can be done, and they can 
be done safely. How we deal with that waste is part of it, but 
the other side of this is----
    Mr. Doyle. Yes, but, Mr. Secretary, it is beyond the 
ability of a lot of States to do what you are suggesting. And 
your responsibility, as Secretary of the Department of Energy, 
is for our national energy portfolio. We know that nuclear is 
about 25 percent of that portfolio, and that if we start to 
lose--we are not building new plants because they cost so much 
money--if we start to lose existing ones prematurely, our 
greenhouse gases go nowhere but up.
    I want to ask you one final question. Worker safety is a 
priority of mine, especially for workers employed in 
environmental remediation and decontamination, because they 
have an uncreased risk of exposure to harmful substances. 
Incorporating robotics into remediation for hazardous or 
radioactive material can not only increase the efficiency of 
remediation, but it protects workers also. What is the 
Department doing to incorporate robotics into cleaning up 
sites?
    Mr. Perry. Yes, sir, we are, obviously, working with that. 
As a matter of fact, we have some projects. Fukushima is one of 
those that the Department is working with the folks. I actually 
was over there a year-plus ago to observe at an appropriate 
distance----
    Mr. Doyle. I see our time is up. I am going to respect Mr. 
Rush. Thank you, Mr. Secretary.
    Mr. Perry. So, the robotics side of it, we are working with 
that. So, our national labs are working with that.
    Mr. Rush. The Chair thanks the gentleman, and the Chair now 
recognizes Mrs. McMorris Rodgers for 5 minutes.
    Mrs. Rodgers. Thank you, Mr. Chairman.
    And welcome, Secretary Perry. I, too, want to join in 
applauding your enthusiastic leadership at the Department of 
Energy to lead the drive to a new American energy era.
    And energy innovation is the key. On this committee, we are 
regularly debating the best ways to promote new American 
energy. And today, because of American ingenuity, we are 
celebrating energy independence. We are celebrating a booming 
economy, and we are also celebrating the fact that we are 
leading the world in bringing down harmful carbon emissions.
    In eastern Washington, I am proud to represent many who are 
on the forefront of these energy solutions, research and 
development, production and storage. Right now, there is an 
exciting partnership between Washington State University and 
PNNL.
    I just wanted to ask you to share some of the details, some 
of the work that is being done at the Department of Energy 
right now on grid modernization space or within grid 
modernization, and how the work of PNNL is benefitting those 
efforts. I also, in that line, wanted just to ask you what you 
believe needs to be done to ensure that the United States 
remains on the forefront of innovation and grid modernization, 
and do you fear that other countries may ultimately surpass the 
United States in this field?
    Mr. Perry. Thank you.
    A great example of what we are doing, I think, and it kind 
of goes to Mr. Peters, when you talked about ARPA-E, and I do 
have a rather strong commitment to the whole concept of public-
private partnerships and working those together. And sometimes 
the budget doesn't reflect the commitment that I have, that the 
agency has, and through some of our cross-cutting. And this is 
one of the great examples of it, of the private sector working 
with us. At Idaho National Lab, for instance, we actually 
operate a grid out there, a standalone grid where we can go in 
and break things and put viruses on, and to really put these 
electrical grids to the test. And we have got very capable 
private sector partners.
    And so, one of the things we are focusing on is resilience 
modeling, you know, grid services that energy storage could 
provide for us in this case; you know, advanced sensors. There 
is the institutional support that comes along with that. I 
think we have some $200 million at DOE in FY16 through '18 for 
those types of services.
    And again, the Grid Modernization Initiative is something 
that we certainly support. The Grid Modernization, GMLC, Lab, 
$40 million for some foundational work from our applied energy 
program. So, we have got multiple offices, and this is kind of 
our philosophy, particularly on the area that ARPA-E and the 
folks that support ARPA-E and that concept of advanced 
research, this is a great example of some of the foundational 
work that DOE is still involved with, and I think it doesn't 
get counted towards ARPA-E conceptually, but it is the type of 
cross-cutting management that we try to do at DOE that keeps 
these types of programs alive and going, although the old ARPA-
E structure, the money doesn't flow through it.
    Mrs. Rodgers. OK. Thank you.
    On another note, I just wanted to give you--others have 
brought up Hanford. I wanted just to ask you in the time 
remaining what you believe could be done, should be done to 
ensure that the site is cleaned up in a timely and cost-
effective manner.
    Mr. Perry. Yes, and we are making some progress. I mean, 
that was one of the biggest frustrations that I saw when I came 
to DOE, was the massive amounts of money that had been done in 
the past. There hadn't been a baseline study done on that thing 
for, I think, the previous 9 years. And we went in and did 
that, and it was a shocking amount of money that is going to be 
needed. But we are making progress.
    For instance, I know Chairman Walden cares about that 
Columbia River, as do you. The last reactor is going to be 
cleaned up. We are going to be able to go announce the last 
reactor in the basin of the Columbia River this fall. So, we 
are making some progress there, the low-level waste facility 
over there. I mean, we are ready to move some of that material 
out of the region and go to either some interim, or, obviously, 
I am looking for some permanent wastesites in this country as 
well.
    So, I think we are making some pretty darn good progress 
out there. We have got a couple of those tunnels now grouted 
and filled. And so, there are some good stories. It is going to 
be a long time and it is going to cost a hell of a lot of 
money.
    Mrs. Rodgers. OK. Thank you.
    Mr. Perry. But we are making some good progress.
    Mrs. Rodgers. And thanks for being here.
    I yield back.
    Mr. Rush. The Chair recognizes Mr. Sarbanes for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    And thanks, Secretary, for being here.
    Mr. Perry. Sure.
    Mr. Sarbanes. You said a moment ago that sometimes the 
budget doesn't reflect the commitment you have and the agency 
has on certain things.
    Mr. Perry. Yes.
    Mr. Sarbanes. So, how do we solve for that here? Because 
the budget is obviously reflecting something. And I guess you 
are between a rock and a hard place, the rock being your 
personal commitment, if I can give you credit for that, and 
wanting to invest in these things, and the hard place being 
orders that are coming from someplace else in the 
administration, where that commitment is not as strong.
    So, I am looking at the Office of Energy Efficiency and 
Renewable Energy, which has done some great work over the 
years. I mean, I think some of the estimates on the return on 
investment there, that it has netted about $230 billion for the 
taxpayers, which is just incredible. But the budget you have 
brought here today would cut that office by 86 percent.
    And then, you look at the Solar Energy Technologies Office. 
Again, they have done terrific work. It has been an economic 
driver, generating economies, employing over 240,000 Americans, 
$17 billion of investment in the Nation's economy. And these 
are award-winning numbers by any measure, helping to keep 
driving the cost, commercial cost, of solar energy down because 
of the continuous attention and focus that that office brings. 
And that office in your budget would be reduced by 70 percent.
    Last year when you were here, we were talking about the 
importance of the Solar Energy Technologies Office's work, how 
it was helping to make solar electricity more affordable. In 
Baltimore, we have been working on a project that DOE was a 
partner in to bring this opportunity to low-income homeowners, 
create a workforce pipeline in the solar industry for people in 
some of the hard-hit parts of Baltimore City, et cetera.
    So, I guess the first question is, do you agree that this 
Solar Energy Technologies Office has done good work and helps 
to improve affordability, reliability, and performance of solar 
technologies on the grid? And how can they continue to do that 
good work if they are going to experience, according to the 
budget request you are making, a 70 percent cut in their 
resources?
    Mr. Perry. The short answer is, yes, sir, I do think that 
that office and the whole of EERE and what they do--and as a 
matter of fact, in March, we announced the largest-ever solar 
funding opportunity. It was $130 million in new research to 
advanced early-stage solar technologies.
    Speaking specifically to this line item that you make 
reference to, the Solar Energy Technologies Office, we had a 
FOA reissue and it went through the process. And on the 25th of 
March, we announced, I think, $36 million worth of projects 
there.
     So, there are two things that I would like to just lay out 
for your consideration. One is you have made reference to, and 
you are absolutely correct, the historic progress and the 
historic winds, if you will, that EERE has had historically. 
And now, we are seeing the industry, both solar and wind, 
become substantially more mature and be able to stand on its 
own two feet, so to speak, and not be requiring the amounts of 
dollars that we had historically. So, I hope there is some 
recognition about the shifting of dollars has been because of 
the maturing of the wind and the solar energy.
    As a matter of fact, since 2016, since this administration 
has come into office, there has been a 90 percent increase in 
the growth of the solar----
    Mr. Sarbanes. Let me just interrupt because I have got 5 
seconds. I understand your argument about it matures and maybe 
the investment doesn't have to be at the same levels. But I 
think if you maintain that investment, you will keep us on the 
cutting edge. We will be more competitive compared with our 
peers around the world than if we start to pull back from that 
investment. So, I hope you will reconsider this as we move 
forward.
    And I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And, Mr. Secretary, welcome again back to this, and thank 
you.
    There are several things I would like to run past you a 
little bit. I liked your opening film clip about energy 
independence in the new era. Can you give us a perspective, 
however, of what is happening in New England? Because I don't 
know that we can suggest, or should be offering, that New 
England is energy-independent. Especially last year in Boston 
Harbor there was an LNG tanker from Russia providing LNG gas to 
New England, and the fact that other New England States and 
across the country were importing 73 terawatt hours of 
electricity from Canada. That, in and of itself, doing some 
rough math, represents about 9 percent of the population in 
this country of America is getting its electricity from Canada. 
So, could you address a little bit, just briefly, on that? 
Because I have got two other questions.
    Mr. Perry. Mr. McKinley, I think what you bring up here is 
really important, and I touched on it a little earlier when I 
think Mr. Pallone and I were having our discussion. But being 
able to deliver energy, U.S.-produced energy, to the totality 
of the United States is really important. What the President 
talked about in his Executive Order on infrastructure was, I 
think, spot-on, of focusing on our ability to deliver the 
energy all across this country. And by and large, that is going 
to be in the form of natural gas. It is going to be in the form 
of nuclear energy, and it is going to be in the form of coal-
powered energy flowing from, you know----
    Mr. McKinley. But we are at the discretion, unfortunately, 
as we are finding out--that is my second question--of how 
States are interacting with the 401 permitting process. We have 
got now four States--New York, Washington, Maryland, and now 
Oregon--that have stepped in and said they are going to use 
this Federal permitting process to prevent us from using fossil 
fuels or crossing fossil fuels in their State. I am just 
wondering, where is the administration in the pushback about 
this commerce clause? Is that troubling----
    Mr. Perry. Yes.
    Mr. McKinley [continuing]. The administration?
    Mr. Perry. Yes, sir, it is. As a matter of fact, the 
President talked about it yesterday during the Cabinet meeting, 
Mr. Chairman. He brought it up. Sonny Perdue and myself are 
both former Governors. And I wrote a book about the 10th 
Amendment. I am kind of on the record of being a pretty strong 
proponent of States being able to decide what is in their best 
interest.
    With that said, I think it does beg the question, is it in 
America's national security for a State to block a pipeline 
that is going to have an impact from a national security 
standpoint? At that particular point in time, I think both the 
Commerce Clause and the national security of this country 
trumps a State being able to stop a pipeline going across, for 
whatever reason that might be.
    And not even to mention what it is doing to the citizens of 
the Northeast from the standpoint, when they are having to pay 
60 percent more for energy, when the emissions are going up 
because they are having to use fuel oil instead of natural gas, 
I mean, not only are they affecting the environment in a very 
negative way, their citizens are having to pay more expensive 
energy.
    So, this isn't just about this issue of is it OK for the 
Governor of New York to stop a pipeline going across the State. 
The citizens of New York need to be engaged in this 
conversation as well about the cost of their energy. And then, 
all of the people of the Northeast need to be talking about 
here is what you are doing to our environment because you 
choose to block a natural gas pipeline going across your State.
    Mr. McKinley. Thank you. So, I am hoping the administration 
gets active in joining other States that are trying to fight 
back against this. I know we have got the Crow Tribe in Montana 
is trying to ship gas or coal across, export it, and they are 
being blocked.
    But let me close in the 10 seconds I have on, can you give 
us an update of what is going on with the status of 
petrochemical complex in the Appalachia?
    Mr. Perry. Sure.
    Mr. McKinley. I know the President has called for a study 
to see if that is not something for energy independence----
    Mr. Rush. The gentleman's----
    Mr. Perry. It is going forward.
    Mr. Rush. Thank you, Mr. Secretary.
    Mr. McKinley. Thank you.
    Mr. Rush. Let me remind Members, please be succinct with 
your questions. We have 18 Members who have not asked 
questions, and we have a hard conclusion at 12:30.
    Mr. Perry. Yes, sir.
    Mr. Rush. So, please.
    The Chair now recognizes Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the chairman.
    I thank Secretary Perry for coming here this morning. I 
appreciate your diligence in running the Department and, also, 
your passion about traumatic brain injury. I hope we get to 
work together on that issue.
    Mr. Perry. Yes, sir, absolutely, we will, sir.
    Mr. McNerney. Well, I am sure you can know that I am not 
thrilled about the Department of Energy's proposed budget. A 10 
percent reduction in environmental management, an 8 percent 
reduction in the Office of Science, 86 percent reduction in 
energy efficiency and renewable energy. My gosh, a complete 
elimination of RPE. None of these are acceptable, and Congress 
will create its own budget that looks a lot more like last 
year's. I am sure you are aware of that.
    So, tell me, how committed is the Department of Energy, and 
how committed are you, to reducing carbon emissions?
    Mr. Perry. I think our record, I will stand on our record, 
sir. Not only did I bring to the agency, as my work as the 
Governor of Texas, the State that was reducing emissions as 
much as any State in the Nation, but this country is doing it 
as well. So, we have got a great story to tell about our 
emissions reduction. I think we can help the world by selling 
them American LNG and by getting our products, not only our 
natural resources, but also our technology and our innovation--
--
    Mr. McNerney. Well, I mean, LNG sounds good, but LNG has 
fugitive emissions, both at the wellhead and throughout the 
system.
    Mr. Perry. Yes, sir.
    Mr. McNerney. Emissions of natural gas are worse by a 
factor of 20 maybe than carbon. So, we have a lot of cleaning 
up to do. We are not there where we need to be, and I am sure 
you understand that.
    Let me ask you a question about cyber. I have introduced 
two cyber bills on grid security with my friend, Bob Latta. And 
that will promote a partnership with industry to mitigate 
physical and cyber risks. So, how did the CESER office learn 
about the March 5th denial-of-service attack on the SCADA 
system? That affected Western States. And when did they notify 
the utilities to be more watchful?
    Mr. Perry. Well, we were in contact with the utilities. And 
I will suggest to you we have very timely--I can't tell you 
time and hour at this particular point in time. I can get that 
to you as best I can. But we not only facilitated contact with 
the Department of Homeland Security and their hunt and incident 
response teams and the FBI----
    Mr. McNerney. So, is that how you learned about the attack? 
How did you learn about the attack? How did the Department of 
Energy learn about the----
    Mr. Perry. Our Emergency Management Office was contacted.
    Mr. McNerney. Well, it is clear that we should work with 
industry, government and industry, to create public-private 
partnerships to make the utilities more secure.
    And in a desire to move on, as I mentioned, the budget 
would cut the Renewable Power Office by 86 percent. That is 
disappointing to me personally since I spent a career 
developing renewable energy. Specifically, however, the budget 
intends on ending the origination of new loans in the Loan 
Program Office. However, Congress has been repeatedly funding 
this office at over $20 million a year. Has the office 
continues to process loan applications and do due diligence on 
the applications, as Congress intended?
    Mr. Perry. Yes.
    Mr. McNerney. Good. I am glad to hear that. Thank you.
    Mr. Perry. Succinct.
    Mr. McNerney. We are following the chairman's----
    Mr. Perry. We are making progress, Mr. Chairman.
    [Laughter.]
    Mr. McNerney. Thank you.
    Nuclear waste, I have been a strong voice in dealing with 
nuclear waste. We have nuclear waste, a lot of nuclear waste, 
around the country sitting in poorly secured sites. Any 
solution, however, absolutely must work with nearby 
communities, which we have seen fail in the past. However, on 
October 10th, 2018, the DOE issued a public notice about the 
way it interprets the words ``high-level nuclear waste''. If 
this were suddenly reinterpreted or reclassified, then the DOE 
could dispose of it in less secure sites. Can you tell us how 
much high-level radioactive waste the Department is considering 
reclassifying?
    Mr. Perry. Mr. McNerney, here I think what is really 
important for us to have a conversation about and be very open, 
this issue is about identifying not where waste comes from, 
whether it is from a weapons program or whether it is from a 
civil nuclear program. And that is how we decide where this 
waste goes at this particular point in time. I think it makes 
abundant good sense for us to identify this waste by its 
radioactivity levels rather than where it comes from. And that 
is what we are talking about doing, is being able to put waste 
where it needs to be, based on its radioactivity and the 
strength of that radioactivity, rather than where it came from. 
And that is what we are trying to decide.
    Mr. Rush. Thank you, Mr. Secretary.
    Mr. McNerney. I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Illinois for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you again for being here.
    I am concerned about the news this week that our European 
and NATO ally, Romania, is now seriously considering doing 
business with a Chinese state-owned enterprise, China General 
Nuclear Power Group. Just this week, the Romanians signed a 
preliminary agreement with the Chinese to refurbish and build 
multibillion-dollar nuclear reactors in Romania. We have 
American companies vying for the project that have been shut 
out by the Romanian government because of this growing Chinese 
influence in Bucharest. To make matters worse, these two new 
Romanian nuclear reactors near the Black Sea sit merely 30 
miles from Camp MK, where we have boots on the ground. Mr. 
Secretary, from a national security standpoint, do you have 
concerns with the Chinese investment in the energy 
infrastructure of our NATO allies such as Romania?
    Mr. Perry. Yes.
    Mr. Kinzinger. Luckily, the agreement between Romania and 
China is not yet finalized. So, how can we engage with our 
partners in Romania to ensure that the bidding process for 
these projects is fair and transparent?
    Mr. Perry. We are headed back over in that part of the 
world the first week of June. I was just back from Brussels, 
meeting with the Deputy Prime Minister of Romania this last 
week. We are in active engagement with our allies and our 
friends in the European theater on the U.S. engagement on civil 
nuclear projects. It is incredibly important for the future of 
the U.S. civil nuclear industry to be engaged there, to be 
partners with them, to develop the new technologies. Because if 
we don't, then at some point in time--and the challenges that 
we face in America today are pretty abundant and pretty clear, 
when we have only got one project that is ongoing today 
building a new reactor. It is why small modular reactors and 
the work that we are doing on funding those small modular 
reactors is so important going forward. So, yes, sir.
    Mr. Kinzinger. Excellent. Thank you.
    And this question, you can take as much time as I have left 
to answer it. But the U.S. is now predicted to be a net energy 
exporter, as you have well noted. That is a stunning turnaround 
from about 15 years ago, when we thought our own resources were 
dwindling and we would be forever reliant on foreign energy.
    U.S. sanctions on Iran's oil export, which come into full 
force this November, would not have been possible were it not 
for the shale boom in the U.S. I understand that you have been 
actively engaged with your counterparts in the world's major 
oil-supplying nations, and that you have expressed confidence 
that we can offset any potential disruptions in supply. How has 
America's energy abundance strengthened our hand diplomatically 
as we deal with global threats such as Iran? And you could even 
add maybe Venezuela into that.
    Mr. Perry. I think most of us, even in this room, don't 
understand the leverage that the United States now has. When I 
talked to, for instance, our European allies in the EU last 
week, they understand, maybe better than we do, the leverage 
that Russia has over those countries. One of the reasons that 
the Russians fight our LNG coming into Europe is so that they 
can be the dominant source of energy to those countries. And 
Ukraine will share with you, and other countries as well, that 
the Russians will cut off your gas supply if it is in their 
best political interest at any given time.
    So, the U.S., our message isn't you have got to buy U.S. 
gas. Ours is there needs to be a diversity of supply, a 
diversity of routes, and a diversity of suppliers.
    Mr. Kinzinger. And let me just say, you know, kind of 
piggybacking on that, I want to thank you for your leadership 
with the European allies at the Three Seas Initiative Business 
Forum in Bucharest in September. I appreciate the Department's 
recent creation of the Partnership for Transatlantic Energy 
Cooperation.
    Mr. Perry. Thank you.
    Mr. Kinzinger. I would like to just mention, in short, a 
bill that we passed out of the House, the European Energy 
Security and Diversification Act. In short, it would help both 
U.S. as well as European and Eurasian countries attain energy 
security diversification and improve supply routes and energy 
infrastructure through partnerships. Thankfully, it passed the 
House in March with overwhelming bipartisan support, and it 
awaits action in the Senate. If the bill is enacted, I would 
just ask you to commit to working with Congress and the State 
Department, and any other relevant agencies, to coordinate a 
national strategy for European energy diversification.
    And, Mr. Secretary, I deeply appreciate your service and 
your leadership.
    And I yield back my still remaining 5 seconds.
    Mr. Perry. Thank you, sir.
    Mr. Rush. The Chair now recognizes the gentleman from New 
York for 10 minutes.
    Mr. Tonko. Thank you, Mr. Chairman.
    Mr. Rush. For 5 minutes.
    Mr. Tonko. Thank you, Mr. Chairman.
    Secretary Perry, thank you for being here. I appreciate the 
work you are doing at the agency, although, like many of my 
colleagues, I do have concerns about the President's budget.
    Mr. Secretary, you have made a point to visit all of our 
national labs. And from a New York perspective, focusing on 
Brookhaven, I can say the research being done is truly cutting-
edge.
    In recent months, we have been having a good, bipartisan 
dialog about how energy innovation can play a role in our 
Nation's clean energy transition and contribute to greenhouse 
gas emissions reductions. In the past, you have testified that 
spurring innovation is a part of DOE's core mission. Do you 
believe that DOE must continue to play an important role in 
funding RD&D----
    Mr. Perry. Yes, sir.
    Mr. Tonko [continuing]. To support the United States' 
private sector in making innovative energy breakthroughs?
    Mr. Perry. Yes, sir.
    Mr. Tonko. Well, we all agree that innovation can unlock 
tremendous opportunities, including creating jobs, empowering 
consumers, lowering energy costs, and reducing pollution. But, 
in many cases, when we talk about innovation, we mean 
breakthroughs in less proven technologies. This requires 
riskier investments, and DOE can play an important role in 
shaping that risk. We should also accept that not all research 
projects are going to work out. When it comes to research 
failure, it is often a down payment on success.
    So, Mr. Secretary, setting aside the President's budget 
request, do you believe that it is a good thing for DOE to make 
investments in riskier, emerging technologies and processes; 
for example, the type of work done by ARPA-E?
    Mr. Perry. Yes, sir.
    Mr. Tonko. ARPA-E is really the proven model for incubating 
innovation. I want to provide one example where I believe these 
investments are essential. Last year, ARPA-E initiated the DAYS 
project, which is focused on long-duration energy storage. In 
my mind, technology development and cost reductions in storage, 
particularly long duration, are absolutely necessary for us to 
achieve ambitious clean energy goals. Mr. Secretary, do you 
believe ARPA-E has played a constructive role in identifying 
energy challenges and helping to find solutions and foster 
innovation?
    Mr. Perry. Yes, sir, there have been programs that ARPA-E 
funded that certainly made progress in that direction.
    Mr. Tonko. Thank you.
    Mr. Perry. Not all of them.
    Mr. Tonko. Thank you.
    We have other big challenges just around the corner. Low-
emissions industrial products, cleaner fuels for aviation and 
shipping, battery recycling and disposal, direct air capture 
technology development. DOE needs to lead the efforts in these 
areas, and I would be eager to work with the Department and 
other Members on these issues.
    Now I understand, you know, I heard your exchange with some 
colleagues about solar technology and the like, but I also want 
to focus on the role DOE can play in reducing costs to 
encourage deployment of existing technologies. For example, DOE 
has identified inconsistent permitting requirements and 
processes as a significant cost of residential energy 
installations. The patchwork of permitting requirements across 
thousands of local jurisdictions causes unnecessary delays and 
adds administrative costs. This not only increases energy 
prices for consumers, but also stifles homeowner and business 
investment in these technologies, such as rooftop solar. Other 
countries like Germany and Australia have sought ways to 
streamline permitting. The average cost of a residential solar 
installation, for example, in Australia is less than half the 
cost in the United States.
    So, Mr. Secretary, DOE and NREL have worked on reducing 
these permitting costs. Do you believe DOE or another Federal 
entity can continue to play a role in helping to streamline the 
permitting process itself for residential energy systems?
    Mr. Perry. Yes, sir.
    Mr. Tonko. Can you give us any examples of how they might 
be able to work with us, the agency itself or others?
    Mr. Perry. Yes, and certainly, I think you all have a role 
to play in that as well from the standpoint of analyzing where 
there may be some duplication of effort, where there are some 
places that we can cut back on the regulatory side without 
there being a cost. You know, do a cost-benefit analysis of the 
rules and regulations that Congress puts into place. I think, 
having been a member of a legislature and having been a chief 
executive in a State, I can assure you that there is probably a 
legitimate conversation that can be had about Federal 
regulations and how those could be streamlined.
    The President is focused on that. He has given all of us in 
his Cabinet a clear directive to look at the regulations that 
you have where you can reduce the regulation and, obviously, 
not affect the public safety or the reason that it was put 
there. If it was a good reason, leave them alone. But, if not, 
reduce them. So, I think there are some great opportunities of 
us continuing to make progress on that.
    Mr. Tonko. We look forward to working with you and NREl and 
get the President to believe in climate change.
    Mr. Rush. The Chair now recognizes the gentleman from Ohio, 
Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, Mr. Secretary, it is good to see you here today.
    Mr. Perry. Thank you, sir.
    Mr. Johnson. Several topics to talk with you about. You and 
I have discussed the emergence of NGL opportunities within the 
eastern and southeastern Ohio region, a region of the country 
that has become known as the Shale Crescent. Your Department 
and others have put out studies showcasing the economic 
advantages of investing in this region, where companies can 
build directly on top of the NGL feedstock, which can result in 
an increase of steady, reliable jobs. Factors like market 
proximity also make this region an extremely compelling 
economic opportunity, as roughly 70 percent of North American 
polyethylene and 77 percent of North American polypropylene is 
within a day's drive of this region, my district. These two 
factors, among others, greatly lower the production cost of 
ethylene and polyethylene.
    So, my question to you is, what else can Congress or DOE do 
to ensure these opportunities are fully realized? I mean, is 
there a need to increase our focus on workforce development or 
ensure smart regulations are in place to encourage the safe 
development of these opportunities? What else should we be 
thinking about or looking at?
    Mr. Perry. Yes, certainly that is two of the areas that we 
should be focused on. But the key here is to put a plan 
together. There are four States, in particular--your home 
State, West Virginia, Pennsylvania, and Kentucky--that have 
extraordinary opportunity to both deliver products to this 
country that are very important, and the value-added side of 
that that comes with that, the jobs that get created, using the 
feedstock that you are actually sitting on top of.
    So, this is not one of those where the Government needs to 
go, well, here is ``X'' numbers of hundreds of millions of 
dollars. This is one of those where we need to tell those 
companies, look, government is going to get out of your way. 
And I am confident that those four States also have that goal 
as well. So, you are not at loggerheads with the States in this 
case. You know, we talked about some challenges with States 
relative to pipeline transferring across their States. But this 
one is, we don't have that type of--we are going to be sending 
Mark Menezes, who is our Under Secretary, in the coming weeks 
to meet with the States on these.
    So, I think what those States need to hear is that the 
Federal Government is going to be a very good partner. We are 
going to be not in their way. We are going to remove any 
hurdles that are there. We have obviously met with the folks in 
West Virginia already. We will come and work with Ohio and 
Pennsylvania and Kentucky as well.
    I don't think there is a more important project in the U.S. 
than to see that development of a petrochemical, a duplicative 
petrochemical industry, because the State of Texas could have a 
hurricane that could have massive impact on that, not only that 
region, but also that industry.
    Mr. Johnson. We certainly agree on that, Mr. Secretary. We 
have seen studies that indicate that as much as 45 percent of 
our Nation's natural gas needs will be produced by that Shale 
Crescent region by 2040. I mean, there are a lot of energy 
resources there.
    Shifting gears just real quick, you and I have also talked 
about, and your budget funds, a demonstration project that can 
help ensure we have a domestic enrichment capability for our 
emerging HALEU needs, as well as a domestic enrichment 
capability to help meet our national security needs. You and 
Representative Kinzinger talked about that a few minutes ago.
    As you know, Piketon, Ohio has a long tradition of helping 
the U.S. meet its national security needs by working on these 
domestic enrichment capabilities. Can you discuss briefly the 
importance of this project in your budget request?
    Mr. Perry. Yes, sir. To have a stable, growing, small 
modular reactor industry, advanced reactors, we are going to 
have a high-assay, low-enriched uranium source. Obviously, at 
Piketon there is a project there that is working on that. I 
think the DOE is funding some of that effort there.
    Every advanced reactor under development is going to 
require this. So, having that access to that HALEU is very 
important. So, the Department intends to contract with Centrus 
that is in Piketon.
    Mr. Rush. Thank you, Mr. Secretary.
    The Chair now recognizes Mr. Loebsack for 5 minutes.
    Mr. Loebsack. I thank you, Chairman Rush, Ranking Member 
Upton, for holding this important hearing today.
    And thank you, Mr. Secretary, for being here today. Often 
when you are here, I note that you and I have something in 
common, and that is all the wind energy that we produce in our 
respective States. We are doing more every day, and I thank you 
for supporting that----
    Mr. Perry. Yes, sir.
    Mr. Loebsack [continuing]. Both in your State and 
nationwide. It is very, very important.
    My home State of Iowa, as you know, leads the Nation in 
biofuels production. Right now, there is a significant concern 
in the biofuels community, which includes our corn and soybean 
farmers, surrounding the drastic increase in the number of so-
called small refinery exemptions that have been issued under 
this administration. And I think we have talked about this 
briefly before.
    As you know, the small refinery waiver process requires 
that the EPA consult with the Secretary of Energy in the review 
of exemption petitions. And unfortunately, we still have 
essentially no transparency regarding this process. So, my 
first question, Mr. Secretary, is, has the DOE submitted its 
recommendations to the EPA for the 40 pending small refinery 
waiver requests for compliance for the year 2018?
    Mr. Perry. Yes, sir. April 26th is the date that we 
transmitted over to EPA the--I think there were 37 petitions.
    Mr. Loebsack. Thirty-seven?
    Mr. Perry. Yes, sir.
    Mr. Loebsack. OK. Thank you. I do appreciate that.
    Question two: last month, Administrator Wheeler testified 
that EPA has taken the advice of DOE on all but one waiver 
application, contradicting press reports the EPA has disagreed 
many times in the past with DOE's recommendations. I am talking 
about historically. Please confirm how many times EPA's 
decision to grant a waiver request since 2016 has contradicted 
DOE's recommendation, if you could.
    Mr. Perry. Yes, let me give you the high level here.
    Mr. Loebsack. Sure.
    Mr. Perry. I will get back with you with a specific number. 
But we give guidance to EPA after analyzing a small refinery's 
petition to determine if there is disproportionate economic 
hardship.
    Mr. Loebsack. Right.
    Mr. Perry. So, you know, I will get you the specific number 
of times that we have said yes and they have said no.
    Mr. Loebsack. And I realize it is supposedly refineries 
that produce 75,000 barrels, and we have a lot of concerns, 
obviously, because we think it is much larger refineries that 
have been granted these exemptions in the past as well. And 
this is a concern, it is a bipartisan concern that a lot of us 
have, especially in corn and soybean country. But I would like 
to request you provide us with a list of refiners that have 
received the waivers from the EPA in cases where DOE 
recommended a denial. And thank you for providing that 
information.
    A number of companies that receive waivers are publicly 
traded, as you know, publicly traded firms that report on the 
waivers they have received in their SEC filings. Since the 
information from these companies is disclosed, at least to the 
SEC, why does the DOE need to treat similar information as 
confidential business information? Clearly, it is not. Can you 
answer that question?
    Mr. Perry. Let me get back with you on that.
    Mr. Loebsack. OK. All right. That would be great, if you 
would. I would really appreciate it.
    The fourth question, on April 12th, EPA released a request 
for comment on a proposal to make some information regarding 
small refinery waivers available to the public, some 
information. However, it appears that EPA has walked back this 
proposal under pressure from the White House and the oil 
industry. And, Mr. Secretary, was DOE consulted in the 
development of this proposal and in the decision to walk back 
this attempt to provide even a basic level of transparency?
     Secretary Perry. Yes, I am going to share with you that 
that is an EPA question. That one really is not in my purview.
    Mr. Loebsack. But we would like you to clarify, if you 
would, whether DOE was consulted on that? And if you need to 
look into that further, that is fine.
    Mr. Perry. What I will tell you is that we get asked about 
the issue of seeing if there is a substantial hardship that 
these waivers would--that is our role here. I am not sure we 
get into the area that you have just mentioned, sir.
    Mr. Loebsack. Well, we are just trying to track down, 
obviously, and provide as much transparency as possible----
    Mr. Perry. Yes, sir, absolutely.
    Mr. Loebsack [continuing]. For what happens with these 
small refinery exemptions. And I know DOE does have a role to 
play in all of this.
    Mr. Perry. Yes, sir.
    Mr. Loebsack. So, the transparency issue, we will continue 
to follow up with you on that.
    Just final comments I would like to make. Mr. Chairman, a 
prolific number of small refinery exemptions issued has 
undermined the renewable fuels standards, caused significant 
demand destruction across the biofuel industries, and has hurt 
our farmers. The EPA, under this administration, has not denied 
a single waiver request, and the number of refineries applying 
to be exempted from their obligation continues to increase each 
year, despite falling RIN prices. It is very frustrating, 
obviously. I am going to continue to pursue this relationship 
that you folks have with the EPA on this issue. And I thank you 
for your testimony.
    Mr. Perry. Sure.
    Mr. Loebsack. And I yield back, Mr. Chair.
    Mr. Rush. The Chair now recognizes Mr. Bucshon for 5 
minutes.
    And the Chair would ask the Members, if you could--we have 
got about seven, eight Members now--if you could quickly to 
your questions? You don't have to use your entire 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    I am an ``all-of-the-above'' energy supporter.
    And, Secretary Perry, thank you for being here.
    As you know, solar power electricity is growing at a rapid 
pace. According to the Solar Energy Industries Association, 
solar has ranked first or second in new electric capacity 
additions in each of the last 6 years. After reaching 1 million 
solar panel installations in 2016, 2 million installations are 
projected to hit in early 2019 and 4 million by 2023.
    In Evansville, Indiana, we have two 2-megawatt universal 
solar projects and an additional 50-megawatt facility scheduled 
to be in operation by 2020. My point being, there are a lot of 
solar panels operating in the field today. I understand, with 
the normal life expectancy between 20 and 30 years for these 
solar panels, it may not be on the forefront of many people's 
mind, but I worry about how we will properly recycle and/or 
dispose of solar panels at the end of their lifecycle. Solar 
panels, as you probably know, harbor several toxic chemicals, 
including cadmium compounds, silicon tetrachloride, and lead, 
which, if not disposed of or recycled properly, can be harmful 
to the environment and extremely wasteful. As of right now, 
most solar panels in the United States at the end of their 
lifecycle are landfilled, unless specified by State law.
    Secretary Perry, is the DOE aware of any recycling 
procedures or guidelines in place today by either the 
manufacturers or the end-users for when these panels reach the 
end of their lifecycle?
    Mr. Perry. I am not aware of any at this particular point 
in time, and I think there is, obviously, some additional 
research that is going to be required to understand just how 
these systems are being handled, not only by the owners, but by 
the waste management operations. If they are going to end up 
in, whether it is--or however they are going to be. So, I think 
there are good points you make, sir, and I think the national 
labs and the private sector, and probably in conjunction with 
some States as well that have a preponderance of these, finding 
some public-private partnerships to work together and come up 
with some solutions.
    Mr. Bucshon. Because my understanding, the Europeans in 
Europe do have a process that is included in the manufacturing 
process that also relates to end-of-the-lifecycle disposal of 
those. And right now, I am working on draft legislation that 
would ask the Department of Energy, in consultation with EPA, 
to conduct a study on the environmental impact and analysis of 
the disposal procedures in place for solar panels at the end of 
their full cycle. Is that something that you think the DOE 
might be supportive of?
    Mr. Perry. Yes, sir.
    Mr. Bucshon. Thank you very much. I do think that it is 
important, when we look at any source of energy, we look at the 
entire lifecycle of that product. Again, I support an ``all-of-
the-above'' energy approach, but in this particular area this 
is just one example, I think, where we are not looking at the 
entire lifecycle and the overall not only economic, but 
environmental impact of a way that we generate energy.
    With that, Mr. Chairman, I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Welch for 5 minutes.
    Mr. Welch. Thank you very much.
    And thank you, Mr. Secretary.
    I want to ask you about energy efficiency. I want to ask 
you about some impounded money that would help on energy 
efficiency. First of all, I want to say, it is very dispiriting 
that we are not making the progress on energy efficiency that 
both sides know is really good. We can bring down carbon 
emissions. We can save homeowners and businesses money. And all 
of the efficiency measures usually require local labor. So, I 
know as a former Governor, that would be very important to you. 
And I don't necessarily think it is you. I just don't know what 
the stall is.
    The administration has been consistent in its efforts to 
strip funding from the ARPA-E program. And the GAO found that 
the Department of Energy was impounding funds from ARPA-E in 
2017. And this is very concerning. The President's budget 
proposed using $350 million of funding Congress had previously 
appropriated to help the Office of Energy Efficiency and 
Renewable Energy in FY 2020. And I know that the Department has 
authority to carry over funds between fiscal years to support 
research efforts, and I understand funding delays can happen, 
but it is starting to appear that this is much more like an 
impoundment. Can you address that and tell us how we are going 
to get that money in the pipeline? That has been appropriated. 
Go ahead, Mr. Secretary.
    Mr. Perry. Yes, sir. I just wanted to make sure--you used 
the term ``impounded'' some dollars, and I want to, just for 
the committee----
    Mr. Welch. No, it is looking that way to me.
    Mr. Perry. Yes, sir.
    Mr. Welch. All right? At a certain point, it goes from 
repurposing to----
    Mr. Perry. You are interested in the results----
    Mr. Welch. Exactly.
    Mr. Perry [continuing]. Whether you use the word 
``impoundment,'' or whatever.
    Mr. Welch. That is exactly right.
    Mr. Perry. And I just want to share with you, from my 
perspective, when we came in, you know, I obviously, a new 
administration, new to the job, and I wanted to take a look at 
these programs. And that is one of the reasons these dollars 
didn't flow. I will take full responsibility. It was me getting 
up-to-speed on these programs, knowing where these dollars were 
going to be spent. With that said, they now have been released 
and gone forward.
    Mr. Welch. Well, I would like to see what those projects 
are because my understanding is that money is not getting out 
the door. Whether it is going to Mr. Bucshon's district or my 
district----
    Mr. Perry. Yes, sir.
    Mr. Welch [continuing]. That is all intended to try to make 
progress----
    Mr. Perry. Yes, sir.
    Mr. Welch [continuing]. On energy efficiency.
    Let me ask you about the appliance standards. There is 
always debate about that, and there are some improvements in 
the appliance standard program that can be made. Mr. Latta and 
I have been working to try to do that.
    But the bottom line here is these efficiency standards 
where you set a requirement that all manufacturers have to meet 
have saved homeowners and businesses a lot of money. In fact, 
because there has been no action on these standards, like the 
lightbulb standards----
    Mr. Perry. Yes, sir.
    Mr. Welch [continuing]. Individual States like Vermont, and 
now other States, are adopting the Federal standard and getting 
the benefit of that. But there is obviously an advantage all 
around if this is Federal. Can you tell me what you are doing 
about these efficiency standards?
    Mr. Perry. Yes, sir. And here is what I would ask you, Mr. 
Welch. One of the things that I found when I got to the agency 
and we were looking at this specific was that I think that the 
statute needs to be revisited. I think there are some 
cumbersomeness that has been put into place. I think there are 
some hurdles in place.
    Mr. Welch. Right.
    Mr. Perry. And I told somebody, I said, listen, the way 
this thing is written, because you can never back up a 
standard, is that I think there is more time being taken than 
needs to be taken on this because we are more interested in 
getting it right than we are getting it fast.
    Mr. Welch. All right. Let me just make a suggestion. I am 
always open to improving the standard. OK? And I would be 
willing to work with my colleagues and with you----
    Mr. Perry. Let's do this.
    Mr. Welch [continuing]. But the standards have made a 
difference. You know, there are about 2.7 billion lightbulb 
sockets where, if we use those, it is going to save homeowners 
about 100 bucks a year. That is real money in Vermont, and I 
know it is for some of your folks in Texas.
    Mr. Perry. Yes, sir. Let's work on this together.
    Mr. Welch. But let's not kill any notion of standards 
because we can make progress there.
    Mr. Perry. Yes, sir.
    Mr. Welch. And then, finally----
    Mr. Perry. I don't think that is what--that is certainly 
not my intention.
    Mr. Welch. All right. Well, I am going to follow up with 
your office.
    Mr. Perry. Yes, fir.
    Mr. Welch. Finally, the DOE loan program, there is about $5 
billion in that. That actually gets out and works well. So, 
let's get it out the door.
    Thank you, Mr. Chairman.
    Mr. Perry. Yes, sir.
    Mr. Welch. I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Chairman Rush and Leader Upton, for 
hosting today's meeting.
    Howdy, Secretary Perry. It is great to have you in front of 
the committee again, and it is also great to have a fellow 
Texan leading the Department of Energy, a State that has done 
more than any other to reduce emissions, at the same time 
becoming a leader in energy production for this country. That 
has done two things. It has made the U.S. a net energy exporter 
over time, and, also, we are part of the overall emissions 
reductions in the United States, which leads the world in 
emissions reduction among industrialized countries.
    So, three quick things. The first one has to do with 
nuclear energy. You talked about the impact of small modular 
reactors, microreactors, and advanced nuclear reactors when it 
comes to helping to decarbonize the environment. As you said 
also, one of the essential elements of that is to have a new 
fuel, high-assay, low-enriched uranium, to do that. Can you 
expand on the importance of HALEU to be able to put these 
reactors into service and, also, the impact it has on 
decarbonizing the environment?
    Mr. Perry. Sure. Mr. Flores, I think it is really important 
that we recognize that the project that we are working on in 
Piketon on the HALEU is the only domestically owned source of 
HALEU. So, that is one of our reasons to be focused on that.
     But these small modular reactors, we truly believe that 
that is the answer to being able to have a reasonably priced, 
sustainable civil nuclear program in the United States. So, 
having that fuel available by a domestically owned company is 
very important. I mean, without the fueling, then you are 
wasting your time with all of the other work that you are 
doing.
    So, your question about SMRs, they are linked together. You 
can't have one without the other. The SMR programs are going to 
go forward. I have got a lot of faith that America will lead 
the world in nuclear power. And when we do that, we will be 
able to sell this innovation to the rest of the world and be 
able to get old, inefficient greenhouse, massive-producing 
power supplies out of the world's fleet out there and doing our 
part not just for the United States, but for the entire world 
from the standpoint of emissions reduction.
    Mr. Flores. Mr. McNerney and I introduced legislation in 
the House that actually passed the House unanimously last year 
to help create that structure for HALEU, and I am hoping that 
we can do that again and, also, get it to the Senate; get it to 
the President's desk. Your Department provided good advice to 
us in terms of the structure of that legislation. So, we hope 
to get that back on the table before too long.
    I would like to talk about another issue to expand on what 
Mr. Bucshon was talking about in terms of the environmental 
impact of silicon-based PV panels. That is a concern in terms 
of the environmental impact at the end of their lives. You 
don't have to respond to this. This is just a question. People 
seem to think that lithium batteries are the way to go when it 
comes to trying to make intermittent sources of electricity, to 
make them part of a baseload power supply. Lithium has a 
variety of environmental issues that are part of it, a part of 
the end-of-life problems----
    Mr. Perry. Yes.
    Mr. Flores [continuing]. When batteries are disposed of. 
And so, I would ask your Department, if you would, to be 
looking at this in the future. It is going to be more of an EPA 
issue, but the DOE is obviously going to have a seat at the 
table. So, keep that in mind in your future plans.
    Mr. Perry. EPA has probably has the back end of it. The 
front of it is come up with innovative ideas and new compounds, 
so that EPA doesn't have a problem.
    Mr. Flores. Yes, that is a good idea. I like that.
    So, I yield back the balance of my time. Thank you, Mr. 
Chairman.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Schrader for 5 minutes.
    Mr. Schrader. Thank you very much, Mr. Chairman.
    And thank you for being here, Mr. Secretary. I apologize--I 
was in another meeting--for dashing up and down.
    I would like to take a little bit of time discussing my 
favorite topic, the Power Marketing Administrations, 
specifically the 2020 budget proposal. At page 8 of your 
testimony, you state, ``The budget proposes the sale of the 
transmission assets of Western Area Power Administration, the 
Bonneville Power Administration, and the Southwestern Power 
Administration, and to reform the laws governing how the PMAs 
establish power rates to require the consideration of market-
based incentives, including whether rates are just and 
reasonable.''
    This is exactly the same testimony that we had in the 2019 
budget. And I think last year, when you came before the 
committee, we chatted about this a bit. And at the time, you 
said, ``I'm reminded of a Kenny Rogers song when he talked 
about you need to know when to hold them and when to fold them. 
Congress has been very clear about the issue. I will be more 
than happy to carry the message back.'' So, the obvious 
question, Mr. Secretary, is, were you able to follow up, take 
that message back, and was it just not received?
    Mr. Perry. I can't answer whether it was received or not. 
It was given.
    Mr. Schrader. All right. Well, I appreciate that, and I am 
going to give you a little more ammunition.
    Mr. Perry. But I will go on the record one more time in 
saying that I suspect that the outcome is going to be the same 
this time as it was in 2018 and 2017.
    Mr. Schrader. Congress does have the ability to dispose of 
what the taxpayers' use of our----
    Mr. Perry. I know how to salute, sir.
    Mr. Schrader. Well, let me help you a little bit here. Nine 
members of this committee, including my fellow Northwest 
colleagues, Mrs. McMorris Rodgers and Ranking Member Walden, 
have asked our colleagues in the administration to please 
reject this misguided proposal. As a Member in the Northwest, I 
remain concerned about the administration's continued 
insistence on this.
    It seems ill-advised for several reasons. It is a nonprofit 
Federal wholesale utility and power marketer. It receives no 
congressional appropriations. It doesn't cost the taxpayer. It 
must recover its costs with revenues that it earns from selling 
wholesale power and its transmission services.
    BPA provides approximately half the electricity used in the 
Pacific Northwest, operates three-quarters of our high-voltage 
transmission grid. Selling these assets would just fragment the 
grid, cause national security issues. Requiring BPA to sell at 
market rates would essentially be the death knell of BPA. The 
whole goal here is to have low-cost energy, low-cost 
opportunity for our municipalities as well as our industry 
partners. They sell the power at cost. That is an advantage 
economically to individuals and to businesses in the Pacific 
Northwest.
    We have had some problems with natural gas. Certainly, it 
is competitive, putting pressure on BPA, the Bonneville Power 
Administration. And we also have increased costs with mandated 
spill to take care of the fish and wildlife mitigation out 
there. Fully a third of our electric bill goes for fish 
mitigation. Without BPA, the Federal Government would be having 
to pick up those costs.
    And frankly, at this point in time, it is really exciting. 
The Bonneville Power Administration has entered into this 
historic agreement with fish groups, industry groups, 
municipalities, to share the Columbia River in a way that 
allows for increased marketing opportunities to our neighbors 
to the south that require a lot of energy during different 
times of the day, during different times of the year. And you 
get a lot of fish passage that heretofore has been a problem 
with the dams in the river. So, it is an historic opportunity 
to get us out of the courts and into the power generation 
business and into the fish passage business, where all boats 
rise at the same level.
    So, I would just ask us to ask you to do the easiest thing 
in the world. Just leave us alone at the end of the day, sir.
    Mr. Perry. Yes, sir.
    Mr. Schrader. And with that, I yield back, Mr. Chair.
    Mr. Perry. Mr. Schrader, could I just share with you one 
thing? We just left Oak Ridge, and I would like to bring to 
your office and show you some technology there on new turbines 
for hydro that they are working on at our national labs, in 
conjunction with the private sector.
    Mr. Schrader. All right.
    Mr. Perry. So, I would like to bring those to you.
    Mr. Schrader. Excellent.
    Mr. Rush. The Chair now recognizes the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, Secretary, for being here, and I appreciate 
your work.
    I appreciate very much the increased dollars that have been 
put in for CESER. I think it is an important function, as we 
are considering this week in the House potentially a 
supplemental disaster funding package, and potentially more 
hurricanes coming in the season that we can expect. How 
important is it that DOE have the resources to proactively plan 
for and deploy resources to respond to emergency situations in 
carrying out this mission as the sector-specific agency for the 
energy sector?
    Mr. Perry. Yes, very important, sir. I mean, obviously, 
this is one where the game never stops getting played, where 
the bar is moved higher. Every time we come up with a patch or 
a way to deflect those that would do nefarious deeds to our 
national security through our electrical grid, they come up 
with a new way to attack it. So, it is a never-ending--this is 
just as important as what the DoD does on keeping this country 
safe through the work that they do.
    Mr. Walberg. I appreciate that. And representing the energy 
district for Michigan on the banks of Lake Erie with nuclear 
and all of the rest, we appreciate knowing that.
    Would DOE be better positioned to carry out these functions 
in the long term if the Assistant Secretary position 
responsible for the functions were made permanent in your 
organization?
    Mr. Perry. Yes, sir, I think so.
    Mr. Walberg. Then, let me cut to the chase and ask if you 
would commit to working with Chairman Rush and myself on our 
important legislation to elevate and ensure that these critical 
functions will continue to be led by an Assistant Secretary.
    Mr. Perry. In the appropriate way for me to participate, 
yes, sir.
    Mr. Walberg. I appreciate that.
    I yield back.
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes the gentlelady from Arizona, Ms. 
O'Halleran, for 5 minutes. No, no, I am sorry. The gentleman 
from Arizona, Mr. O'Halleran, for 5 minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman.
    Thank you, Secretary Perry, for appearing before the 
committee today to discuss the critical work underway at the 
Department of Energy to modernize and support our economy.
    Americans deserve access to reliable and efficient energy 
resources, and I firmly believe the U.S. should always strive 
to lead the world in innovation within the energy sector. It is 
no secret that solar energy technologies are rapidly advancing. 
It is also no secret that Arizona leads the Nation in total 
days of sunshine per year. With the abundance of sun my State 
has to offer, we are at the forefront of the energy transition, 
and I am looking forward to working on legislation that 
advances resilient, grid-scale storage technologies.
    According to the Department's 2020 budget request, energy 
storage can effectively buffer increased variable supply and 
demand in our electric grids. While the Department has invested 
significantly in research for grid-scale storage technology, 
how will the proposed Advanced Energy Storage Initiative 
supplement other research across the Department also related to 
energy storage?
    Mr. Perry. Mr. O'Halleran, less than 90 days ago, we were 
outside of Phoenix, or Tucson, at a facility visiting that 
solar-top-generated power that was going into the batteries, I 
mean, an Arizona Power Service, APS, project out there. So, 
they are a model for some of the Southwestern States to look at 
from the standpoint of generation and storage of electrical 
power.
    Mr. O'Halleran. Thank you, Secretary.
    Beyond research and tax incentives, are there other ways 
Congress could further help storage technologies become 
scalable into electric utility markets? Are targeted pilot 
projects with local communities a possibility?
    Mr. Perry. Yes, sir, well, obviously, the work that is 
being done at some of our national labs, I totally believe that 
the holy grail of battery storage will be found in the not-too-
distant future, and I will suggest it will be a public-private 
partnership with a national lab, a DOE national lab, and some 
private sector partners.
    Mr. O'Halleran. I would be interested in visiting one of 
your laboratories also.
    While our energy market continues to evolve, I continue to 
maintain an ``all-of-the-above'' approach to energy policy. 
However, I am mindful of the impacts felt in communities when a 
coal-fired power plant closes. My district is home to the 
Navajo Generation Station, which is facing hardship. In fact, 
it is going to be closed. Its closure would simply devastate 
the Navajo and Hopi Tribes.
    Secretary, in terms of helping communities have access to 
the resources they need for an economic transition of displaced 
workers in these dire situations, what role can DOE and 
Congress play? Cuts to the Tribal Energy Loan Guarantee Program 
are not going to help us.
    Mr. Perry. Yes, sir, I think one of the ways--and this gets 
back to Chairman Rush's effort on clean energy jobs. The 
transition, if the decision is made to shut that plant down, I 
think the focus on the diversity of that workforce and being 
able to bring those individuals into some of the clean energy 
jobs is one of the alternatives that we can do, too.
    And the other side of it is that, hopefully, the innovation 
that you are going to see out of, again, DOE labs dealing with 
the usage of coal, and the technologies that come of that, can 
keep that plant going and be able to be a source of energy and 
a source of innovation for the country.
    Mr. O'Halleran. It will be interesting to see what those 
programs look like----
    Mr. Perry. Yes, sir.
    Mr. O'Halleran [continuing]. Since the plants are scheduled 
for closure across the entire Western United States fairly 
quickly----
    Mr. Perry. Yes.
    Mr. O'Halleran [continuing]. Within the next 10 years.
    Mr. Perry. Yes.
    Mr. O'Halleran. Thank you, Secretary, for providing your 
insight into these critical issues facing the energy sector. As 
a member of this committee, we will continue to work on 
ensuring the Department continues to advance American 
leadership in energy policy. And I look forward to trying to 
understand the entire Department's focus on renewables and the 
ability to address the considerable impact climate change has 
in our society.
    Mr. Perry. Yes, sir.
    Mr. O'Halleran. And thank you, Secretary.
    Mr. Perry. Thank you, sir.
    Mr. Rush. Mr. Secretary, I know you have a hard stop. I 
know you have a hard stop this morning at 12:30. We have three 
more Members. Can you indulge us? If they will be brief, can 
you indulge us?
    Mr. Perry. And I will be brief, too, sir.
    Mr. Rush. All right.
    Mr. Perry. I promise.
    Mr. Rush. The Chair now recognizes Mr. Duncan.
    Mr. Duncan. Thank you.
    Thank you, Secretary Perry, for being here, and thank you 
for taking some extra time. I know you had a hard break.
    Back in March of this year, President Trump released an 
Executive Order on coordinating national resilience to 
electromagnetic pulses. A key component of the President's 
strategy is enhancing grid resiliency and hardening, which you 
mentioned in your testimony, and I couldn't agree more. 
Securing our Nation's electric grid infrastructure is vital to 
our Nation.
    But, down in Charleston, South Carolina, Clemson 
University--go Tigers--and private partners like Duke Energy 
have established the eGRID facility. It is providing a platform 
for innovating and validating and testing multimegawatt 
electrical grid components and real grid conditions without the 
risk to the wider grid. This capability is needed to facilitate 
the rapid introduction of new technologies in our grid system. 
There is no other facility in the country with the capabilities 
of the Clemson-Duke Energy eGRID, and the project is way ahead 
of anyone else in the Nation.
    I believe grid resiliency is critical to our national 
security, but I am also a fiscal conservative and I don't 
believe we should duplicate tax dollars and spending. The 
obvious choice for completion of the testbed is at the eGRID 
facility in Charleston, in conjunction with Clemson University. 
It is the most efficient and effective use of taxpayer dollars.
    Secretary Perry, are you familiar with the work being done 
at that facility?
    Mr. Perry. Yes. This North American Energy Reliability and 
Resiliency Model, I think it is a $30,000 program that I am 
looking at here--excuse me--$30 million. I missed it by a few 
zeroes there.
    Mr. Duncan. Have you visited that facility?
    Mr. Perry. No, sir, but----
    Mr. Duncan. I know it is Clemson University and I know of 
Texas A&M, but I want to invite you to come.
    Mr. Perry. Texas A&M is playing Clemson this fall. So that 
seems like it might be a good time for me to come visit. What 
do you think, sir?
    [Laughter.]
    Mr. Duncan. I look forward to hosting you in South Carolina 
and, hopefully, down in Charleston for that.
    Mr. Perry. I have been there before. I hope the outcome is 
different than it was the last time we were there.
    Mr. Duncan. Right.
    Mr. Perry. I am speaking from a Texas A&M perspective, of 
course, sir.
    [Laughter.]
    Mr. Duncan. Let me shift gears because I want you to come 
down to Charleston, and we are going to make that happen, 
because it is important for our Nation. The threat of natural 
or manmade EMPs, and just where our grid system, this is a 
vital component. There is also a drivetrain facility, which you 
will see, testing all of the wind turbines for all the dynamics 
that the wind can put on those. It is a neat facility. I was 
down there Tuesday. And you will find it fascinating, and you 
will understand how important that is to the Nation, just like 
H Canyon is at Savannah River Site.
    And I think you visited the Savannah River Site. H Canyon 
is a chemical separation facility. It is vital to pit 
production.
    Mr. Perry. Yes, sir.
    Mr. Duncan. New missions at the Savannah River Site that I 
know you support, the transition from MOX over to pit 
production is important. You have mentioned that. I want to 
tell you, I stand with you on that for the folks down at the 
Savannah River Site.
    In the interest of time, I just want to mention one last 
thing. It is something you and I agree with. A national 
solution to a national problem, and that is Yucca Mountain. A 
hundred and twenty-one sites around this country currently hold 
commercial spent fuel. We also have defense waste sitting at 
places like Savannah River and Hanford. Yucca Mountain is the 
law of the land, and I support the Nuclear Waste Policy 
Amendments Act. And I know you do as well. I look forward to 
working with you and John Shimkus and others to get Yucca 
Mountain back on track.
    And I want to give you an opportunity to comment on either 
Yucca Mountain, or anything you would like to, for this last 
couple of seconds.
    Mr. Perry. Yes, sir. We have spent $8 billion on Yucca 
Mountain. We spend $2 million a day keeping it right here. That 
is the plan right now. And I don't think that is what Americans 
want to see. I think they want to have a permanent repository. 
The law of the land, you are correct, is Yucca, but we can't 
get an answer on whether Yucca is the right place or some other 
place is the proper disposal site unless we have the permitting 
process going forward. So, we can stand up in front of 
Americans and say we have found a solution to this $2-million-
a-day problem that we got, but also here is our solution to it; 
here are the sites that we need to look at. And we can't do 
that unless the permitting process at NRC goes forward and DOE.
    Mr. Duncan. I will just remind this committee that 
ratepayers paid for the construction and operation fees for 
Yucca Mountain. In South Carolina, that has amounted to $1.3 
billion--not tax dollars, ratepayer dollars. And it is the same 
way in all the States. There is nuclear waste is sitting on the 
shores of Lake Erie in Ohio, sitting on the shores of Lake 
Keowee in South Carolina, and other places that we don't want 
to see anything negative happening. Yucca Mountain is a 
national solution to a national problem and something we need 
to support the Secretary on and get Yucca Mountain back, 
because, as he said, and I have said, it is the law of the 
land.
    And with that, Mr. Chairman, I yield back.
    Mr. Rush. The Chair now recognizes the gentlelady from 
California, Ms. Barragan, for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman.
    Secretary Perry, in 2017, the Department of Energy 
finalized and published a comprehensive policy to incorporate 
environmental justice into the decisionmaking process at the 
Department. Secretary Perry, do you know what environmental 
justice means?
    Mr. Perry. I can tell you what it means to me.
    Ms. Barragan. What does it mean to you?
    Mr. Perry. Environmental justice to me is being able to pay 
an electrical rate that I can afford and at the same time 
knowing that the emissions are not going up because of a 
decision that is made. I see environmental justice being 
attacked every day when the folks in the Northeast have to pay 
an exorbitant amount of money for the cost and the emissions 
are going up. To me, that would be a----
    Ms. Barragan. Mr. Secretary, let----
    Mr. Perry [continuing]. Social and an economic injustice.
    Ms. Barragan. OK. Mr. Secretary, I represent a district 
that is a majority minority. It is 88 percent Latino, African-
American. They disproportionately have the burden of injustices 
that are happening from air pollution, from the lack of 
efficiency, not investing enough in energy efficiency. But let 
me tell you, your own report here says the Department of Energy 
defines environmental justice as, quote, ``the fair treatment 
and meaningful involvement of all people with respect to 
development, implementation, and enforcement of environmental 
laws, regulations, and policies''. That is directly from this 
report here from your Department, and your photo is right in 
the front here.
    So, what progress has your Department made in achieving 
these goals in the 2 years since it was published?
    Mr. Perry. I would suggest we are making progress.
    Ms. Barragan. OK, well, you know, that is not a very 
specific answer. I would like to know what specific progress 
you are making. Just to help remind you of the goals here, goal 
No. 1 says to fully implement Executive Order 12898, the 
``Federal Actions to Address Environmental Justice in Minority 
Populations and Low-Income Populations''. Goal No. 3 says, ``to 
minimize climate change impacts on vulnerable populations''. 
Many of those populations are just like my district, low-
income, communities of color.
    And I would like, if you could, please, to make sure that 
you follow up with me on what progress your Department has 
made. Unfortunately, your answer just that you are making 
progress doesn't help us know what it is you are working on.
    Mr. Perry. Well, can I expand then? I am just trying to 
follow the chairman's lead and be as concise as I can be.
    When you look at what the United States is doing from the 
standpoint of reducing emissions, I think that goes right to 
the heart of what you are talking about. That goes right to the 
heart of, if your constituents care about the emissions going 
down, the United States and what we are doing with liquefied 
natural gas--as a matter of fact, I would think it would make 
sense to go across the State of California and export that gas 
off the West Coast somewhere, so they can go and impact the 
rest of the globe somewhere. So, all of those things 
collectively I think go to the heart of what you are talking 
about from the standpoint of environmental justice.
    And if we are going to be serious about this, we can't 
block an emission-reducing fuel like natural gas from going 
across New York into the Northeast. You can't block that type 
of fuel going across your State to keep it from going to 
somewhere in the world. I mean, you can't, on the one hand, 
talk about environmental justice, and then, say, ``Oh, but we 
can't send any of this fuel across our state because, for 
whatever reason, we don't like that particular fuel.``
    Ms. Barragan. Mr. Secretary, will you commit to giving me 
in writing something about what you are doing on environmental 
justice in your Department, to just supplement what you said 
here today?
    Mr. Perry. Sure. Absolutely.
    Ms. Barragan. That would be great. I just want to say, 
look, I know a lot of my colleagues have talked about the cuts 
to research and development. I am a firm believer that we need 
to fund, adequately fund, investment in renewable energy 
programs. Because if we don't, it is going to put the U.S. at a 
geopolitical disadvantage, considering how aggressively some 
other nations are phasing out fossil fuels. And I think there 
is a great tie here to environmental justice, and given time, 
maybe we can have this conversation another time.
    Mr. Perry. We will do it.
    Ms. Barragan. Thank you, Mr. Secretary.
    Mr. Perry. Thank you.
    Mr. Rush. The Chair now recognizes the gentleman from 
Virginia, Mr. Griffith.
    Mr. Griffith. Thank you very much, Mr. Secretary. I know it 
has been a long day. I apologize that I have not been here for 
the entire hearing. I have been upstairs working on trying to 
figure out ways to lower drug prices in another subcommittee, 
and that is important as well. You are doing great work. We 
appreciate you. When you come to testify, it is usually one of 
my favorite days. So, I really do regret that I have not been 
able to be here all day.
    And I would just have to say that there is a lot of great 
stuff going on. Now I am concerned about cuts to research. I 
think there needs to be more money on research, but that needs 
to be a parity between our fossil fuels and making sure that we 
are finding the best ways that we can use them. As you know, 
the rest of the world is not going to stop using fossil fuels, 
even if we do.
    And one of the things that is interesting is, a couple of 
years ago, you all gave a research grant for trying to separate 
rare earth minerals from coal.
    Mr. Perry. Yes.
    Mr. Griffith. Well, here is what happened. It has just been 
really exciting, and I have just learned about this in the last 
couple of weeks. I have been talking about it everywhere I go.
    They haven't got that perfected. In fact, Dr. Yoon at 
Virginia Tech, who I greatly respect, said they weren't ready 
to go to phase 2; that DOE was working on it. They were hoping 
you all might go to phase 1.5 on that. But they have licensed 
that technology to steel mills in India. Why? Because, as a 
part of their research, they are separating things from coal 
and they can separate out the dirtier coal from the cleaner 
coal, the higher-carbon coal. And now, we have got steel plants 
in India that are going to use that technology to get a higher 
grade of coal to burn, to make their steel, which means that 
they are lowering their carbon footprint because of technology 
financed, in part, by the Department of Energy at Virginia Tech 
and other places. And that is progress.
    When you say we are making progress, I don't know how you 
could ever list out everything that you all are doing because, 
as we work as a nation, both on renewables and on fossil fuels, 
to make it better, to burn it cleaner, to do more, we are going 
to find things that benefit the rest of the world as well. And 
we should be able to export that. I congratulate you on that.
    Are there any things that you all can do to help us export 
those technologies as they come up? Because when we are dealing 
with climate change and we are talking about CO2 in the 
atmosphere, we are not talking about just the United States or 
the State of Virginia.
    By the way, thanks for stealing our coach at Virginia Tech, 
my district, but that is all right, to Texas A&M in basketball.
    [Laughter.]
    Mr. Perry. A good man.
    Mr. Griffith. He is a good man.
    But we can do a lot for the world if we will export 
American technology----
    Mr. Perry. Yes.
    Mr. Griffith [continuing]. To the rest of the world, so 
they can lower their carbon footprint. Because the Indians are 
going to burn coal, no matter what. The Sub-Saharan and African 
nations have plenty of coal. They are going to burn it. What 
say you?
    Mr. Perry. Absolutely.
    Mr. Griffith. And is there anything that you can do to help 
us export that technology as we come up with it?
    Mr. Perry. It is really interesting, as I was having the 
discourse previously and we were talking about our European 
friends who are getting out of the natural gas--or, no, excuse 
me--they are getting out of the coal. They are going to all 
renewables, et cetera. And, you know, they criticize us for 
leaving the Paris Accord.
    Yet, what I tell them is, I said, when you all have the 
reductions in emissions that the United States has, then you 
can lecture me about getting out of the Paris Accord, but until 
you do that, please don't. And then, when you close the door, 
they say, ``And by the way, how can we buy some of that LNG?''
    So, I mean, they get it, that it is the United States' 
ability to deliver liquefied natural gas. It is our ability to 
deliver technology like you are talking about to help lower 
emissions around the world. That, I will suggest, is the 
absolute definition of environmental justice.
    Mr. Griffith. And you are absolutely right. And as a part 
of that, we also keep rates low.
    Mr. Perry. We do.
    Mr. Griffith. I thank you very much.
    And I yield back.
    Mr. Rush. The Chair thanks you, Mr. Secretary, for your 
participation in today's hearing. And now, Mr. Secretary, I 
know you have to leave. You really were gracious with your 
time, and thank you so very much for your participation.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Rush. Thank you.
    Now the Chair wants to remind Members that, pursuant to 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by the 
witness who has appeared.
    And I ask, Mr. Secretary, if you will respond promptly to 
any such questions that you may receive.
    The Chair has a unanimous consent request to enter into the 
record the following submissions: a study from the Brookings 
Institute entitled ``Advancing Inclusion Through Clean Energy 
Jobs,'' a report by the Solar Energy Industries Association 
entitled ``Diversity Best Practices Guide for the Solar 
Industry,'' and an article from the Alliance to Save Energy 
entitled ``Growth in Energy Efficiency Demands Investment in a 
Highly Skilled Workforce.''
    Hearing no objection, so ordered.
    [The Alliance to Save Energy article appears at the 
conclusion of the hearing.\1\]
---------------------------------------------------------------------------
    \1\ The Brookings Institute study and the Solar Energy Industries 
Association report as well as a Department of Energy FY 2020 Budget in 
Brief report have been retained in committee files and also are 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109433.
---------------------------------------------------------------------------
    Mr. Rush. The subcommittee now stands adjourned.
    [Whereupon, at 12:49 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

                                 <all>
</pre></body></html>
